APPENDIX

App. 1
APPENDIX A
NOTE: This disposition is nonprecedential.
United States Court of Appeals for the Federal Circuit
______________________
IYM TECHNOLOGIES LLC,

Appellant
v.
RPX CORPORATION, ADVANCED MICRO
DEVICES, INC.,

Appellees

______________________
2019-1761
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in No.
IPR2017-01886.
______________________
JUDGMENT
_____________________
MICHAEL DEVINCENZO, King & Wood
Mallesons LLP, New York, NY, argued for appellant.
Also represented by ROBERT WHITMAN, ANDREA
PACELLI, CHARLES WIZENFELD.
NATHAN R. SPEED, Wolf, Greenfield & Sacks,
PC, Boston, MA, argued for appellees. Also represented
by RICHARD GIUNTA, BRYAN S. CONLEY,
RANDY
J.
PRITZKER,
ANANT
KUMAR
SARASWAT.

App. 2
_____________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (LOURIE,
HUGHES, Circuit Judges).

MOORE,

and

AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
March 9, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 3
APPENDIX B
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
______________________
IYM TECHNOLOGIES LLC,

Appellant
v.
RPX CORPORATION, ADVANCED MICRO
DEVICES, INC.,

Appellees

______________________
2019-1762
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in No.
IPR2017-01888.
______________________
Before LOURIE, MOORE, and HUGHES, Circuit
Judges.
PER CURIAM.
ORDER
RPX Corporation petitioned for inter partes
review of claims of 1–11, 13, and 14 of U.S. Patent
7,448,012, owned by IYM Technologies LLC. After that
review, the Patent Trial and Appeal Board (“the Board”)
held that claims 1–9, 11, 13, and 14 of the ’012 patent are
unpatentable. See RPX Corp. v. IYM Techs. LLC, No.
IPR2017-01888 (PTAB March 6, 2019). IYM appeals.

App. 4
In a separate appeal, we recently affirmed a
decision by the Board holding claims 1–14 of the same
’012 patent unpatentable. IYM Techs. LLC v. RPX
Corp., No. 19-1761 (Fed. Cir. March 9, 2020).
IT IS ORDERED THAT:
Accordingly, this appeal is dismissed as moot in
light of our affirmance in IYM Techs. LLC v. RPX
Corp., No. 19-1761 (Fed. Cir. March 9, 2020), which
invalidated all of the claims at issue in this appeal.
FOR THE COURT
March 13, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 5
APPENDIX C
Trials@uspto.gov

Paper No. 35

571.272.7822

Filed: March 6, 2019

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
RPX CORPORATION and ADVANCED MICRO
DEVICES, INC.,
Petitioner,
v.
IYM TECHNOLOGIES LLC,
Patent Owner.
____________
Case IPR2017-01886
Patent 7,448,012 B1
____________
Before MICHAEL R. ZECHER, MINN CHUNG, and
CARL L. SILVERMAN, Administrative Patent Judges.
ZECHER, Administrative Patent Judge.
FINAL WRITTEN DECISION

Inter Partes Review
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

App. 6
I. INTRODUCTION
Petitioner, RPX Corporation and Advanced
Micro Devices, Inc. (collectively, “RPX”), filed a Petition
requesting an inter partes review of claims 1–14 of U.S.
Patent No. 7,448,012 B1 (Ex. 1001, “the ’012 patent”).
Paper 1 (“Pet.”). Patent Owner, IYM Technologies LLC
(“IYM”), filed a Preliminary Response. Paper 8. Taking
into account the arguments presented in IYM’s
Preliminary Response, we determined that the
information presented in the Petition established that
there was a reasonable likelihood that RPX would
prevail in challenging at least one of claims 1–14 of the
’012 patent as unpatentable under 35 U.S.C. § 103(a).
Pursuant to 35 U.S.C. § 314, we instituted this inter
partes review on March 8, 2018, as to all of the
challenged claims and all grounds raised in the Petition.
Paper 9 (“Dec. on Inst.”).
During the course of trial, IYM filed a Patent
Owner Response (Paper 14, “PO Resp.”), RPX filed a
Reply to the Patent Owner Response (Paper 20, “Pet.
Reply”), and, with our authorization, IYM filed a SurReply to the Reply (Paper 24, “PO Sur-Reply”). Each
party was afforded the opportunity to file a one-page
paper that identifies purported improper/proper
arguments raised in the Sur-Reply. Papers 27, 30. A
consolidated oral hearing with related Case IPR201701888 was held on December 11, 2018, and a transcript
of the hearing is included in the record. Paper 34 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
decision is a Final Written Decision under 35 U.S.C. §
318(a) as to the patentability of claims 1–14 of the ’012
patent. For the reasons discussed below, we hold that
RPX has demonstrated by a preponderance of the

App. 7
evidence that these claims are unpatentable under §
103(a).

A. Related Matters
The parties indicate that the ’012 patent is
involved in a district court case captioned IYM
Technologies LLC v. Advanced Micro Devices, Inc., No.
1:16-cv-00649-GMS (D. Del.). Pet. viii; Paper 4, 1. In
addition to this Petition, RPX filed another petition
challenging the patentability of claims 1–11, 13, and 14 of
the ’012 patent (Case IPR2017-01888). Pet. viii; Paper 4,
1. A Final Written Decision for Case IPR2017-01888 is
being entered concurrently.

B. The ’012 Patent
The ’012 patent, titled “Methods and System for
Improving Integrated Circuit Layout,” issued
November 4, 2008, from U.S. Patent Application No.
10/907,814, filed on April 15, 2005. Ex. 1001, [54], [45],
[21], [22]. The ’012 patent claims priority to the following
two provisional applications: (1) U.S. Provisional
Application No. 60/603,758, filed on August 23, 2004; and
(2) U.S. Provisional Application No. 60/564,082, filed on
April 21, 2004. Id. at [60].
The ’012 patent generally relates to integrated
circuit (“IC”) manufacturing and, in particular, to a
method and system for generating and optimizing the
layout artwork of an IC. Ex. 1001, 1:11–13. As
background, the ’012 patent discloses that, in modern
processing technology, the manufacturing yield of ICs
(i.e., a measure of functioning devices in semiconductor
testing) depends on their layout construction. Id. at
1:17–19. For a given manufacturing process, a set of
design rules are applied during chip layout in order to
avoid geometry patterns that cause chip failures. Id. at

App. 8
1:19–21. These design rules guarantee the yield by
limiting layout geometry parameters, such as minimum
spacing, minimal line width, etc. Id. at 1:21–23.
Conventional layout construction systems cover the
worst case scenario for all chips by applying these
design rules over a wide chip area and to entire classes
of circuits. Id. at 1:24–27.
The ’012 patent discloses that, in modern
processing technology, many layout features may
interact during chip processing. Ex. 1001, 1:29–31. These
feature dependent interactions are difficult to capture
with precise design rules and, as a result, sufficiently
relaxed global design rules are implemented in order to
guarantee the yield. Id. at 1:33–36. According to the ’012
patent, there are two drawbacks to this approach: (1) it
clearly wastes chip area; and (2) determining the worst
case scenario in all chips is a non-trivial task that
consumes engineering resources. Id. at 1:37–40. The ’012
patent also discloses that some emerging processing
technologies prefer one spatial direction over the other.
Id. at 1:41–42. Existing layout generation systems,
however, use identical minimal spacing and minimal
width rules for both directions, which, according to the
’012 patent, leads to wasted chip area and
underutilization of processing capabilities because the
design rules must cover the worst case scenario in both
directions. Id. at 1:42–46.
The ’012 patent purportedly addresses these and
other problems by providing a method and system for
forming layout constraints to account for local and
orientation processing dependencies. Ex. 1001, 1:51–54.
By combining a local process modification value, which
represents an additional safeguard beyond an original
design rule constraint, with the original design rule

App. 9
constraint itself, it effectively creates a new constraint
for every unique local situation. Id. at 1:55–64, 4:3–5.
This mechanism adds extra safeguards to design rule
formulation and improves chip yield by eliminating
processing hotspots. Id. at 1:64–67, 4:5–6.

C. Illustrative Claim
Claim 1 is the only independent claim at issue.
Independent claim 1 is directed to “[a] method for
generating design layout artwork implemented in a
computer.” Ex. 1001, 8:16–17. Claims 2–14 directly
depend from independent claim 1. Independent claim 1
is illustrative of the challenged claims and is reproduced
below:
1. A method for generating design layout
artwork implemented in a computer, comprising:
receiving a design layout comprising a
plurality of layout objects residing on a plurality
of layers;
receiving descriptions of manufacturing
process;
constructing a system of initial constraints
among said layout objects;
computing local process modifications to
change said initial constraints using said
descriptions of manufacturing process;
constructing new local constraint distances
by combining said local process modifications
with constraint distances in said system of initial
constraints;
enforcing
distances; and

said

new

local

constraint

App. 10
updating the coordinate variables of layout
objects according to the solutions obtained from
enforcing said new local constraint distances;
whereby a new layout is produced that has
increased yield and performance.
Ex. 1001, 8:15–35.

D. Prior Art Relied Upon
RPX relies upon the prior art references set forth
in the table below:
Inventor1

U.S. Patent Relevant Dates
No.

Côté

6,745,372 B2 issued June 1, 1004
2004, filed Apr. 5,
2002

Bamji

5,663,891

Kroyan

7,523,429 B2 issued Apr. 21, 1006
2009, filed Feb. 18,
2005

Cobb

6,249,904 B1 issued June 19, 1007
2001, filed Apr. 30,
1999

1

Exhibit
No.

issued Sept. 2, 1005
1997, filed Apr. 3,
1996

For clarity and ease of reference, we only list the first
named inventor.

App. 11

E. Instituted Grounds of Unpatentability
We instituted a trial based on the asserted
grounds of unpatentability (“grounds”) set forth in the
table below. Dec. on Inst. 31.
Reference(s)

Basis

Challenged
Claim(s)

Côté

§ 103(a)

1–3, 5, 13, and 14

Côté and Bamji

§ 103(a)

1–3, 5, 10, 11, and
13

Côté, Bamji, and Kroyan

§ 103(a)

3, 4, and 6–9

Côté, Bamji, and Cobb

§ 103(a)

12

II. ANALYSIS

A. Claim Construction
In an inter partes review proceeding filed before

November 13, 2018, claim terms of an unexpired patent
are given their broadest reasonable interpretation in
light of the specification of the patent in which they
appear. 37 C.F.R. § 42.100(b) (2018).2 Under the
broadest reasonable interpretation standard, claim
terms are generally given their ordinary and customary
meaning, as would be understood by one of ordinary skill

2

A different rule applies for petitions filed on or after
November 13, 2018. Changes to the Claim Construction
Standard for Interpreting Claims in Trial Proceedings
Before the Patent Trial and Appeal Board, 83 Fed. Reg.
51,340 (Oct. 11, 2018) (amending 37 C.F.R. § 42.100(b)).

App. 12
in the art, in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007).
In the Decision on Institution, because there was
no dispute between the parties regarding claim
construction at the preliminary stage, we did not
construe explicitly any claim term of the ’012 patent.
Dec. on Inst. 6–7 (citing Nidec Motor Corp. v.
Zhongshan Broad Ocean Motor Co., 868 F.3d 1013, 1017
(Fed. Cir. 2017) (“[W]e need only construe terms ‘that
are in controversy, and only to the extent necessary to

resolve the controversy.’” (quoting Vivid Techs., Inc. v.
Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999)))). After reviewing the record developed during
trial, we maintain that no claim term of the ’012 patent
requires an explicit construction for purposes of this
Final Written Decision.

In its Patent Owner Response, IYM proposes
constructions for the following claim terms: (1)
“constraints”; (2) “enforcing said new local constraint
distances”; (3) “description(s) of manufacturing
process”; and (4) “width,” “space,” “overlap,”
“enclosure,” and “extension.” PO Resp. 14–22.
Beginning with IYM’s proposed constructions for the
claim
terms
“constraints,”
“description(s)
of
manufacturing process”, and “width,” “space,”
“overlap,” “enclosure,” and “extension,” there is no
dispute between the parties regarding the proper
constructions for these claim terms. Compare PO Resp.
14–17, 22, with Pet. 17–19, 28–29.
Turning to IYM’s proposed construction for the
claim term “enforcing said new local constraint
distances,” IYM contends that this claim term should be
construed as “finding solutions (i.e., adjustments to the

App. 13
layout) that remove violations of the new local constraint
distances.” PO Resp. 17. IYM, however, asserts that it
only offers an explicit construction to “crystallize the
issues with respect to the Allan reference in [Case]
IPR2017-01888.” Id. at 21. Indeed, IYM does not argue
separately whether RPX properly relies on Côté, which
serves as the primary reference in the grounds based on
obviousness raised in this proceeding, to teach or
suggest the claim term “enforcing said new local
constraint distances.” See generally id. at 30–57, 62–65
(limiting its arguments to whether Côté teaches or
suggests the “local process modifications” and “new local
constraint distances,” as recited in independent claim 1);
see also Pet. Reply 5 (“IYM does not challenge that Côté
meets the ‘enforcing’ limitation, and disputes only
whether ‘the Allan reference in [Case] IPR2017-01888’
does. [PO Resp.] 17, 21; . . . Ex. 1027, 252:15–253:9
(confirming that construction of ‘enforcing’ limitation is
not relevant to opinions regarding Côté).”). Because
IYM does not challenge RPX’s arguments and evidence
as to whether Côté teaches or suggests the claim term
“enforcing said new local constraint distances,” we need
not construe explicitly this claim term for purposes of
this Final Written Decision. See Nidec Motor Corp., 868
F.3d at 1017.

B. Obviousness Over the Teachings of Côté
RPX contends that claims 1–3, 5, 13, and 14 of the
’012 patent are unpatentable under § 103(a) over the
teachings of Côté. Pet. 21–40. RPX explains how Côté
teaches or suggests the subject matter of each
challenged claim, and provides reasoning as to the
reasonable inferences one of ordinary skill in the art
would be expected to draw from the teachings of that
reference. Id. RPX also relies on the Declaration of Dr.

App. 14
Nagel to support its positions. Ex. 1002 ¶¶ 138–187, 252–
263. In its Patent Owner Response, IYM presents a
number of arguments, most of which focus on whether
Côté teaches or suggests “computing local process
modifications to change said initial constraints using said
descriptions
of
manufacturing
process”
and
“constructing new local constraint distances by
combining said local process modifications with
constraint distances in said system of initial constraints,”
as recited in independent claim 1. PO Resp. 30–57. IYM
relies upon the Declaration of Dr. Bernstein to support
its positions. Ex. 2012 ¶¶ 73–112.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the art,
proceeded by a brief overview of Côté, and then we
address the parties’ contentions with respect to the
claims at issue in this asserted ground.

1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,
would have been obvious at the time the invention was
made to a person having ordinary skill in the art to
which said subject matter pertains. KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). The question of
obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level of
skill in the art; and (4) when in evidence, objective
indicia
of
non-obviousness
(i.e.,
secondary
considerations). Graham v. John Deere Co., 383 U.S. 1,

App. 15
17–18 (1966). We analyze this asserted ground based on
obviousness with the principles identified above in mind.

2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a person
of ordinary skill in the art. Relying on the testimony of
its declarant, Dr. Nagel, RPX asserts that a person of
ordinary skill in the art as of April 2004, which is the
earliest priority date on the face of the ’012 patent,
would be an individual who possesses “a bachelor’s
degree in Electrical Engineering or the equivalent,
along with at least two years of experience in developing
and/or researching integrated circuit technology.” Pet.
16 (citing Ex. 1002 ¶¶ 30–32). IYM’s declarant, Dr.
Bernstein, generally agrees with the assessment of RPX
and Dr. Nagel, but further clarifies that “a person of
ordinary skill in the art would have had a sufficient
familiarity with [electronic design automation] tools to
be able to competently use such tools and understand
their operation.” PO Resp. 12–13 (citing Ex. 1002 ¶ 31;
Ex. 2012 ¶¶ 26–29).
We do not discern a material difference between
the assessments advanced by the declarants, nor does
either party premise its arguments exclusively on its
assessment of the level of skill in the art. Moreover, each
party’s declarant appears to meet or exceed both
parties’ assessments (see Ex. 1002 ¶¶ 2–13; Ex. 1003;
Ex. 2012 ¶¶ 3–19, Curriculum Vitae), and either
assessment of the level of skill in the art is consistent
with the ’012 patent and the asserted prior art. We,
therefore, adopt Dr. Nagel’s assessment and apply it to
our obviousness evaluation below, but note that our
conclusions would remain the same under Dr.
Bernstein’s assessment.

App. 16

3. Côté Overview
Côté generally relates to the process of designing
an IC and, in particular, to simulating effects of a
manufacturing process on an IC to enhance process
latitude and/or reduce layout size. Ex. 1004, 1:9–13.
Figure 5 of Côté, reproduced below, illustrates
generating and enhancing the layout of an IC in
accordance with one embodiment. Id. at 3:53–55, 5:8–10.

Figure 5, reproduced above, depicts layout creation
process 503 that receives design 502 and “ensures that
the resulting layout 510 satisfies a set of design rules
505.” Ex. 1004, 5:12–14. Next, layout 510 is “[fed]
through process simulator 512,” which, in turn, “uses a
process model 513 to generate a simulated printed image
514 for the layout.” Id. at 5:17–19. Simulated printed
image 514 “may include a number of printed images
generated using different process parameters.” Id. at

App. 17
5:19–22. This allows process simulator 512 to determine
how the changes in process parameters will affect the
printed image. Id. at 5:22–24.
Côté further discloses that “image analyzer 516
uses the simulated printed image 514 to generate local
layout requirements 518 to optimize the process latitude
and/or layout characteristics” (e.g., area). Ex. 1004, 5:29–
32. These “additional constraints 518” are “[fed] into a
layout optimizer 520, which further optimizes the
layout.” Id. at 5:32–35. In at least one instance, “layout
optimizer 520 attempts to update the layout to produce a
layout 522 with enhanced process latitude.” Id. at 5:36–
38. “[L]ayout 522 can additionally feed into yield
estimator 523 to produce an estimated yield 527 for the
[IC].” Id. at 5:55–57. According to Côté, “[this]
simulation process can be applied to the enhanced layout
in an iterative fashion to further improve process
latitude for the layout.” Id. at 5:58–60.

4. Claim 1
In its Petition, RPX primarily relies on the
generation and enhancement of a layout as illustrated in
Figure 5 of Côté and its corresponding description to
teach all of the limitations of independent claim 1. Pet.
24–38. Beginning with the recitation in the preamble of
“[a] method for generating design layout artwork
implemented in a computer,” RPX argues that Côté
teaches this intended use language because it discloses
techniques
implemented
by
various
software
components, including an image analyzer 516 that
generates local layout requirements 518 and layout
optimizer 520 that optimizes the layout and generates
enhanced layout 522. Id. at 24 (citing Ex. 1004, 2:48,
6:60–63; Ex. 1002 ¶ 137).

App. 18
The first method step of independent claim 1 is
“receiving a design layout comprising a plurality of
layout objects residing on a plurality of layers.” Ex.
1001, 8:18–19. RPX argues that Côté teaches this
“receiving” method step because the embodiment
illustrated in Figure 5 indicates that layout creating
process 503 receives design 502. Pet. 24 (citing Ex. 1004,
2:38–44, 4:51–52, 5:13–17, Figs. 1, 6, 7; Ex. 1002 ¶ 139).
Relying on the testimony of Dr. Nagel, RPX argues that
one of ordinary skill in the art would have understood
that Côté’s layout (such as layout 510 disclosed in the
context of Figure 5) includes a plurality of layout
objects, which, in turn, reside on a plurality of layers. Id.
at 25 (citing Ex. 1002 ¶ 140). RPX also directs us to
Figure 7 of Côté as one example of a simulated printout
image produced from a layout that includes a plurality of
objects and multiple layers. Id. at 25–26 (citing Ex. 1004,
5:18–30, 6:31, Fig. 7; Ex. 1002 ¶¶ 141–149).
The second method step of independent claim 1 is
“receiving descriptions of manufacturing process.” Ex.
1001, 8:20. RPX argues that Côté teaches this
“receiving” method step because layout creation process
503 illustrated in Figure 5 receives design rules 505 that
“specify a number of constraints, such as minimum
spacings or minimum line widths, to increase the
likelihood that the finished [IC] functions properly in
spite of different manufacturing effects.” Pet. 27
(quoting Ex. 1004, 1:58–63) (citing Ex. 1004, 5:12–14,
Fig. 5). RPX also argues that Côté teaches this
“receiving” method step because simulator 512 uses
process model 513 to generate simulated printed image
514 for the layout. Id. According to RPX, Côté’s
simulated printed image 514 may include a number of
printed images generated using different process

App. 19
parameters so as to “determine how the printed image
will be affected by changes in process parameters.” Id.
(quoting Ex. 1004, 5:18–24). Relying on the testimony of
Dr. Nagel, RPX asserts that one of ordinary skill in the
art would have understood that both Côté’s design rules
and simulation models serve as examples of information
describing a manufacturing process. Id. at 26–27 (citing
Ex. 1002 ¶¶ 150–154).
The third method step of independent claim 1 is
“constructing a system of initial constraints among said
layout objects.” Ex. 1001, 8:21–22. RPX argues that IYM
should be held to its proposed construction of the claim
term “constraints” in the related district court case as
“limits on geometry parameters of the layout objects in
the design layout.” Pet. 28 (citing Ex. 1017, 4–6). As
support for this construction, RPX directs us to various
disclosures in the specification of the ’012 patent. Id.
(citing Ex. 1001, 3:10–11, 3:16–17, 3:28–29). Applying the
aforementioned construction of the claim term
“constraints,” RPX argues that Côté similarly discloses
determining constraints for layout 510 using design
rules 505. Id. at 29 (citing Ex. 1004, 1:59–60, 4:46–54,
5:12–14). Relying on the testimony of Dr. Nagel, RPX
argues that one of ordinary skill in the art would have
appreciated that Côté’s process of applying design rules
505 to layout 510 is identical to the parlance of the ’012
patent of “constructing a system of initial constraints
among said layout objects.” Id. (citing Ex. 1002 ¶ 158).
The fourth method step of independent claim 1 is
“computing local process modifications to change said
initial constraints using said descriptions of
manufacturing process.” Ex. 1001, 8:23–25. RPX argues
that Côté teaches this “computing” method step because
it discloses simulating the effects of manufacturing

App. 20
processes on layout 510 in order to identify problem
areas from which local layout requirements may be
derived. Pet. 31 (citing Ex. 1004, 2:37–46, 5:17–29; Ex.
1002 ¶¶ 162–167). According to RPX, after identifying
problem areas in layout 510, Côté uses those problem
areas to generate local layout requirements 518 to
optimize latitude and/or layout characteristics (e.g.,
area). Id. (citing Ex. 1004, 2:8–10, 2:45–47, 5:31–36, 6:31–
40). RPX asserts that Côté discloses generating layout
requirements 518 from running simulations (i.e.,
“descriptions of manufacturing process”), and using
those local layout requirements 518 to change the “initial
constraints,” which constitutes the claimed “local
process modifications.” Id. at 32 (citing Ex. 1004, 3:10–
12, 5:18–31).
The fifth method step of independent claim 1 is
“constructing new local constraint distances by
combining said local process modifications with
constraint distances in said system of initial constraints.”
Ex. 1001, 8:26–28. RPX argues that Côté teaches this
“constructing” method step because it discloses feeding
additional constraints 518 generated from local process
modifications into layout optimizer 520, “which further
optimizes the layout.” Pet. 33 (quoting Ex. 1004, 5:31–
36). According to RPX, Côté’s newly constructed
constraint distances (i.e., additional constraints 518) are
applied to local areas of the layout during the
optimization process and, therefore, constitute the
claimed “new local constraint distances.” Id. (citing Ex.
1004, 2:10–12, 5:9–33, 6:9–17, 6:31–40). Relying on the
testimony of Dr. Nagel, RPX asserts that Côté discloses
generating the newly constructed constraint distances
based on both the original design rules, as well as the

App. 21
local process modifications determined from running
simulations. Id. at 33–34 (citing Ex. 1002 ¶¶ 168–171).
The sixth method step of independent claim 1 is
“enforcing said new local constraint distances.” Ex. 1001,
8:29. RPX argues that the ’012 patent discloses
enforcing constraints by executing an optimization
process incorporating those constraints. Pet. 35 (citing
Ex. 1001, 3:65–67, 4:17–67). RPX argues that Côté
teaches this “enforcing” method step because, similar to
the optimization approach disclosed in the ’012 patent,
Côté discloses feeding additional constraints 518 into
layout optimizer 520 to produce enhanced layout 522
with improved process latitude. Id. (citing Ex. 1004,
5:32–33). According to RPX, Côté’s production of
enhanced layout 522 confirms that additional constraints
518 are enforced. Id. at 35–36 (citing Ex. 1004, 6:52–59;
Ex. 1002 ¶¶ 176–178).
The seventh method step of independent claim 1
is “updating the coordinate variables of layout objects
according to the solutions obtained from enforcing said
new local constraint distances.” Ex. 1001, 8:30–32. RPX
argues that Côté teaches this “updating” method step
because layout optimizer 520 produces enhanced layout
522, which also may be used to improve process yield by
feeding it into yield estimator 523 to produce estimated
yield 527. Pet. 36 (citing Ex. 1004, 2:48–64, 5:8–50). RPX
also directs us to Figure 6 of Côté as one example of
updating the coordinates of layout shapes based on an
enhanced layout. Id. (citing Ex. 1004, 6:7–12, Fig. 6).
RPX asserts that Côté’s optimization results are the
claimed “solutions obtained from enforcing said new
local constraint distances,” and that Côté’s movement of
the objects in the enhanced layout amounts to the
claimed “updating the coordinate variables of layout

App. 22
objects” according to the solutions produced by layout
optimizer 520 in enforcing local layout requirements 518.

Id.

The last limitation of independent claim 1 is
“whereby a new layout is produced that has increased
yield and performance.” Ex. 1001, 8:33–34. RPX argues
that IYM should be held to its position in the related
district court case that the “whereby” clause is not
limiting. Pet. 37 (citing Ex. 1017, 15). RPX further
argues that, to the extent we determine that the
“whereby” clause is limiting, Côté discloses this
limitation because it uses layout optimizer 520 to
enhance layout 510 in order to improve process latitude.
Id. (citing Ex. 1004, 5:8–35). Relying on the testimony of
Dr. Nagel, RPX asserts that a person of ordinary skill in
the art would have understood that (1) an improvement
to process latitude would improve yield; and (2)
compaction could increase the performance of an IC
(e.g., by reducing worst case path delay). Id. at 37–38
(citing Ex. 1002 ¶ 185). RPX asserts, therefore, that
Côté’s IC resulting from the new enhanced layout would
have increased yield and performance. Id.
In its Patent Owner Response, IYM’s arguments
can be grouped as follows: (1) RPX blurs the line
between anticipation and obviousness; (2) Côté does not
teach or suggest “computing local process modifications
to change said initial constraints using said descriptions
of manufacturing process”; (3) Côté does not teach or
suggest “constructing new local constraint distances by
combining said local process modifications with
constraint distances in said system of initial
constraints”; and (4) the remaining arguments. We
address these groupings of arguments in turn. See PO
Resp. 30–57.

App. 23

a. The Relevant Inquiry Is One of Obviousness—Not
Anticipation
As an initial matter, we address IYM’s vague
assertions implying RPX’s asserted ground based on
Côté alone is actually one of anticipation—not
obviousness. As one example, when addressing whether
RPX may rely on the teachings of Côté together with
Dr. Nagel’s supporting testimony, IYM asserts that
“‘[a]n expert’s conclusory testimony, unsupported by the
documentary evidence, cannot supplant the requirement
of anticipatory disclosure in the prior art reference
itself.’” PO Resp. 2 (quoting Motorola, Inc. v.
Interdigital Tech. Corp., 121 F.3d 1461, 1473 (Fed. Cir.
1997)); see also id. at 43 (arguing the same). As another
example, when arguing that a person of ordinary skill in
the art cannot provide the limitations purportedly
missing from Côté, IYM states that “Côté does not
anticipate the challenged claims.” Id. at 54. Yet another
example is IYM’s argument that “[RPX] appear[s] to
‘confuse[] anticipation . . . with obviousness, which,
though anticipation is the epitome of obviousness, are
separate and distinct concepts.’” Id. at 55 (quoting Jones
v. Hardy, 727 F.2d 1524, 1529 (Fed. Cir. 1984)).
Similar to the arguments presented at the
preliminary stage, we understand IYM to assert that the
ground based on Côté alone blurs the line between
anticipation and obviousness. Contrary to IYM’s
assertion, RPX does not argue that Côté anticipates the
challenged claims, but rather it argues that the
teachings of Côté together with the background
knowledge of one of ordinary skill in the art renders the
challenged claims obvious. Pet. 21–40; see also PO Resp.
54 (admitting that, “in fact [RPX] do[es] not even argue
anticipation by Côté”). As support for this and other

App. 24
obviousness grounds raised in the Petition, RPX
explains:
The claims call out specific features that do not
contribute to the purported inventiveness of the
’012 patent and are instead the type of
information that publications in this field typically
assume is within the reader’s knowledge and do
not explicitly discuss. For this reason, . . .
obviousness grounds are presented rather than
anticipation, even where a single reference is
cited. Dr. Nagel’s testimony is cited for these
well-known features, together with supporting
evidence.
Pet. 8. Under the circumstances described by RPX, it is
appropriate to apply a single prior art reference—in this
case, Côté—together with the background knowledge of
one of ordinary skill in the art—as evidenced by Dr.
Nagel’s
supporting
testimony—in
analyzing
obviousness. See Monsanto Tech. LLC v. E.I. DuPont
de Nemours & Co., 878 F.3d 1336, 1346–47 (Fed. Cir.
2018) (“Though less common, in appropriate
circumstances, a patent can be obvious in light of a
single prior art reference if it would have been obvious
to modify the reference to arrive at the [claimed]
invention.”) (quoting Arendi S.A.R.L. v. Apple Inc., 832
F.3d 1355, 1361 (Fed. Cir. 2016)); see also Realtime Data
LLC v. Iancu, 912 F.3d 1368, 1373 (Fed. Cir. 2019)
(affirming the Board’s conclusion that claims were
obvious based on one prior art reference alone
notwithstanding patent owner’s argument that the
ground at issue would have been more properly raised
under 35 U.S.C. § 102).

App. 25

b. Côté Teaches “Local Process Modifications”
In its Patent Owner Response, IYM contends
that it is unclear what teachings in Côté satisfy the
claimed “local process modifications” and “new local
constraint distances.” PO Resp. 32. IYM argues that the
diversity of opinions between RPX’s and Dr. Nagel’s
strained reading of Côté and the Board’s preliminary
findings indicate that Côté is susceptible to
fundamentally different readings, none of which renders
obvious the challenged claims. Id. at 32–33 (citing Pet.
34–35; Ex. 2013, 183:20–184:14, 185:14–21, 186:10–24,
236:23–237:6; Dec. on Inst. 19; Ex. 2012 ¶ 76). IYM
further argues that Côté’s local layout requirements and
additional constraints, each of which are identified using
numeral 518, are one and the same. Id. at 33–34 (citing
Ex. 1004, 5:30–34, Fig. 5; Ex. 1002 ¶ 78; Ex. 2013, 207:4–
5; Ex. 2012 ¶ 77). IYM asserts that it would be improper
for RPX to rely on the same element in Côté (i.e., local
layout requirements 518 and additional constraints 518)
to teach two separately identifiable features of the
claimed invention—namely, the claimed “local process
modifications” and “new local constraint distances.” Id.
at 34–35 (citing Ex. 2012 ¶ 78).
IYM further contends that RPX also relies on
Côté’s identification of problem areas in an attempt to
compensate for Côté’s purported failure to explain local
layout requirements 518, how they are computed, or how
they are used. PO Resp. 43 (citing Pet. 31). According to
IYM, identifying problem areas does not play any role in
the determination of Côté’s local layout requirements
518 because only layout optimizer 520—not image
analyzer 516—identifies problem areas. Id. at 43–44
(citing Ex. 1004, 5:30–31, Fig. 5; Ex. 2012 ¶¶ 89, 90). To
support this argument, IYM directs us to Dr. Nagel’s

App. 26
cross-examination testimony in which he purportedly
confirms that Côté generates local layout requirements
518 prior to running layout optimizer 520. Id. at 44–45
(citing Ex. 2013, 239:17–240:2; Ex. 1004, 5:33–36; Ex.
2012 ¶ 91).
In its Reply, RPX counters that Côté’s local
layout requirements 518 are used to change the initial
constraints imposed by design rules 505, and that
change, which is calculated from the simulations
received from process simulator 512, teaches the claimed
“local process modifications.” Pet. Reply 7 (citing Ex.
1004, 2:8–12, 2:45–47, 5:31–36, 6:9–17; Ex. 1002 ¶¶ 162–
167), 8 (arguing that “the change (calculated from the
simulation) is a ‘local process modification’ in the
language of [independent] claim 1” (emphasis omitted)).
RPX argues that IYM does not address Dr. Nagel’s
unrefuted testimony other than to argue that Côté’s
optimization process does not involve identifying
problem areas. Id. at 7. RPX further argues that, when
reading Côté, as a whole, Côté identifies problem areas
before running layout optimizer 520 so that it can
produce a new target layout addressing those problem
areas. Id. at 15–16 (citing Pet. 22–23, 31–33; Ex. 1005,
2:38–50, 5:29–36).
In its Sur-Reply, IYM reiterates its argument
that “local process modifications” and “new local
constraint distances” are separately identifiable features
of the claimed invention, and RPX cannot rely on Côté’s
local layout requirements and additional constraints,
each of which is identified using numeral 518, to teach
both of these claimed features. PO Sur-Reply 1–2 (citing
Pet. Reply 23–24). IYM then argues that RPX’s Reply
mischaracterizes its position regarding these claimed
features and then changes theories by arguing that

App. 27
Côté’s changes to the local layout requirements 518
constitute the claimed “local process modifications.” Id.
at 2–3 (citing Pet. 33, 50, 51; Pet. Reply 3, 23–24). IYM
argues that RPX’s purported new theory fails for the
following three reasons: (1) at best, Côté discloses
changes to the shapes of a design layout—not changes to
constraints of the design layout; (2) Dr. Nagel’s crossexamination testimony contradicts RPX’s position that
Côté’s changes to the local layout requirements 518
constitute the claimed “local process modifications”; and
(3) RPX’s Reply is replete with confusing and
contradictory statements regarding “local layout
requirements,” “additional constraints,” “changes,” and
“distance.” Id. at 3–5.
Based on the record developed during trial, we
agree with RPX and its declarant, Dr. Nagel, that the
changes to initial design rules 505 that result from
running simulations on layout 510 amount to the claimed
“local process modifications.” Côté’s process of
generating and enhancing a design layout begins with
inputting design 502 and ensuring that resulting layout
510 satisfies a set of initial design rules 505. Ex. 1004,
5:12–14. After running simulations on layout 510 using
process simulator 512, image analyzer 516 analyzes
simulated printed image 514 to identify problem areas,
and then uses those problem areas to generate local
layout requirements 518 to optimize latitude and/or
layout characteristics (e.g., area). Id. at 5:30–33; see also
id. at [57] (“The system . . . identifies problem areas in
the simulated printed image that do not meet a
specification.”), Fig. 7 (illustrating problem areas in a
printed image using highlighted white boxes). One
example of a problem area is that the edges of the
features may be spaced too closely together to cause

App. 28
potential bridging. Id. at 6:31–40, Fig. 7. This problem is
addressed by creating a larger space between the
features. Id. at 6:9–17, 6:31–40, Figs. 6, 7.
Based on these and other disclosures in Côté,
RPX’s declarant, Dr. Nagel, testifies that “Côté
discloses simulating effects of manufacturing processes
on . . . layout [510] to identify problem areas, from which
local layout requirements are derived.” Ex. 1002 ¶ 163
(citing Ex. 1004, 2:37–46, 5:17–29). Dr. Nagel further
testifies that “Côté’s ‘local layout requirements [518]’ are
used to ‘change’ the initial constraint [imposed by design
rules 505], and the change that is (calculated using the
simulations) is a ‘local process modification,’” as claimed.
Id. ¶ 166. We credit Dr. Nagel’s testimony in this regard
because it is consistent with Côté’s disclosure of the
changes to initial design rules 505 that result from
running simulations on layout 510.
Although IYM is correct that Côté identifies both
local layout requirements and additional constraints
using numeral 518 (Ex. 1001, 5:30–34), we do not agree
with its argument that RPX relies on the same element
in Côté to teach both the claimed “local process
modifications” and “new local constraint distances.” See
PO Resp. 33–35; PO Sur-Reply 1–2. RPX relies on
different teachings of Côté—albeit interrelated
teachings—to account for these two claimed features. As
we explain above, RPX relies on the changes to initial
design rules 505 that result from running simulations on
layout 510 to teach the claimed “local process
modifications.” As we explain below, RPX relies on
Côté’s additional constraints 518, which is the product of
combining the changes identified above with the initial
design rules 505, to teach the claimed “new local
constraint distances.” See infra Section II.B.4.c.

App. 29
During cross-examination, Dr. Nagel was asked
whether Côté’s local layout requirements and additional
constraints, each of which is identified using numeral
518, are the same thing. The relevant exchange is
reproduced below.
Q. Just to be clear, additional constraints
518 and local layout requirements 518 are the
same thing; correct?
A. Well, I guess it depends upon who you
talk to. . . . I think the correct way of interpreting
this is that the local layout requirements, which
are the [local design rules], and the [global design
rules] together form the new constraints 518
which feed into the layout optimizer [520]. So
they’ve called—they’re referring to the same
thing by two different names, but elsewhere I
think they mean different things by “layout
requirements” than they do “additional
constraints.”
Q. So you think the disclosure of Côté
would be unclear to a person of ordinary skill?
...
[A.] I think it might cause a little
confusion. I think once you sit down and study
[Côté], you can figure out what they mean. But
it’s an unfortunate choice of words.
Ex. 2013, 183:20–184:14. We understand Dr. Nagel to
testify that Côté’s identification of both local layout
requirements and additional constraints using numeral
518 was “an unfortunate choice of words,” but
nonetheless, when reading Côté, as a whole, one of
ordinary skill in the art would have appreciated the
subtle differences. This is consistent with general

App. 30
principles of obviousness, specifically that Figure 5 of
Côté and its corresponding description of local layout
requirements and additional constraints 518 “must be
read, not in isolation, but for what it fairly teaches in
combination with the prior art as a whole.” In re Merck
& Co., 800 F.2d 1091, 1097 (Fed. Cir. 1986); see also In
re Hedges, 783 F.2d 1038, 1041 (Fed. Cir. 1986)
(explaining that, when evaluating claims for obviousness,
“the prior art as a whole must be considered”).
We also do not agree with IYM’s argument that
Côté’s identification of problem areas cannot be used to
compute the claimed “local process modifications.” See
PO Resp. 43–45. IYM’s argument in this regard is
predicated on the notion that problem areas are not used
to generate local layout requirements 518 because, when
describing the generation and enhancement of a layout
as illustrated in Figure 5 of Côté, the description of
layout optimizer 520 is preceded by the following
statement: “[n]ote that this further optimization can
involve identifying problem areas in the layout as is
illustrated in [Figure] 7.” Ex. 1004, 5:30–36. When
reading Côté, as a whole, it becomes clear that image
analyzer 516 identifies problem areas and then uses
those problem areas to generate local layout
requirements 518, all of which occurs prior to layout
optimizer 520 producing enhanced layout 522.
Côté’s Abstract, which is produced below,
provides context regarding the temporal significance of
the processing steps illustrated in Figure 5 of Côté.
During operation, the system receives a
representation of a target layout for the
integrated circuit . . . . Next, the system simulates
effects of the manufacturing process on the target
layout to produce a simulated printed image for

App. 31
the target layout. The system then identifies
problem areas in the simulated printed image
that do not meet a specification. Next, the system
moves corresponding shapes in the target layout
to produce a new target layout for the [IC].
Ex. 1004, [57] (emphases added), 2:41–50 (disclosing the
same). Côté further discloses that “moving the
corresponding shapes in the target layout involves
applying relaxed rules to the problem areas of the target
layout to improve process latitude.” Id. at 3:1–4, 3:7–9
(disclosing the same). Applying this temporal
significance to Côté’s Figure 5, it follows that “problem
areas” in layout 510 are identified and addressed (i.e., by
image analyzer 516 using simulated image 514 to
identify problem areas, and then using those problem
areas to generate local layout requirements 518) prior to
feeding additional constraints 518 into layout optimizer
520 to produce enhanced layout 522.
The cross-examination testimony of Dr. Nagel
also supports our determination in this regard. When
asked whether “local layout requirements [518] must be
calculated prior to running . . . layout optimizer [520],”
Dr. Nagel responded “Yes. They’re calculated by . . .
image analyzer [516].” Ex. 2013, 239:20–24. Dr. Nagel
was then asked “[s]o . . . layout optimizer [520] does not
calculate local layout requirements [518]; correct?” Dr.
Nagel unequivocally responded “No.” Id. at 239:25–
240:2. We credit this testimony from Dr. Nagel because
it is consistent with the temporal significance attributed
to the processing steps illustrated in Figure 5 of Côté.
Lastly, we do not agree with IYM’s argument
that RPX’s Reply presents a new theory as to how the
teachings of Côté account for the claimed “local process
modifications.” See PO Sur-Reply 2–5. Contrary to

App. 32
IYM’s arguments, RPX consistently and repeatedly
takes the position that Côté’s changes to initial design
rules 505 that result from running simulations on layout
510 teach the claimed “local process modifications.”
Compare Pet. 31–32, with Pet. Reply 7–8. As we explain
above, this position has a sufficient basis in the teachings
of Côté and it is supported by Dr. Nagel’s testimony. Ex.
1004, 5:9–62, 6:9–17, 6:31–40, Figs. 5, 7; Ex. 1002 ¶¶ 162–
167; Ex. 2013, 183:20–184:14, 239:17–240:2.

c. Côté Teaches “New Local Constraint Distances”
In its Patent Owner Response, IYM contends
that Côté’s additional constraints 518 do not constitute
the claimed “new local constraint distances.” PO Resp.
37. According to IYM, there are a number of reasons as
to why the layout optimization illustrated in Figure 6 of
Côté does not require “new local constraint distances.”
Id. As one example, IYM argues that the corresponding
description of Figure 6 does not mention constraint
distances at all. Id. at 38 (citing Ex. 1004, 5:65–6:28). As
another example, IYM argues that, at his deposition, Dr.
Nagel purportedly agreed that the layout optimization
illustrated in Figure 6 could be obtained from the
application of two additional constraints that are not
constraint distances. Id. at 38. Relying on an annotated
version of Figure 6 that is Exhibit 2018, IYM asserts
that the two constraint distances are not “new local
constraint distances,” but rather they are two fixed
positions. Id. at 38–39 (citing Ex. 1004, Fig. 6; Ex. 2012
¶¶ 82, 83; Ex. 2013, 200:20–201:8, 210:22–211:10). IYM
also argues that Exhibit 2019 represents Dr. Nagel’s
own depiction of Figure 6, but the hypothetical
additional constraint d1 he inserted into this figure is not
supported by the teachings of Côté. Id. at 39–40 (citing
Ex. 2012 ¶ 84; Ex. 2013, 254:12–255:6; Ex. 2019).

App. 33
Next, IYM contends that Côté’s additional
constraints 518 are not obtained “by combining . . . local
process modifications with constraint distances in [a]
system of initial constraints,” as recited in independent
claim 1. PO Resp. 40 (citing Ex. 1004, 5:30–34).
According to IYM, Dr. Nagel purportedly agreed that
Côté does not explain how to compute additional
constraints 518. Id. at 40–41 (citing Ex. 2012 ¶ 85; Ex.
2013, 191:13–19). Relying once again on an annotated
version of Figure 6 that is Exhibit 2018, IYM asserts
that the two additional constraints illustrated in this
figure are not constructed from constraint distances, let
alone “by combining . . . local process modifications with
constraint distances in [a] system of initial constraints.”
Id. at 41 (citing Ex. 2012 ¶ 86; Ex. 2013, 211:18–24).
IYM further contends that Dr. Nagel’s reading of
independent claim 1 contradicts his testimony that
Côté’s additional constraints 518 constitute the claimed
“new local constraint distances.” PO Resp. 41–42.
According to IYM, Dr. Nagel testified, at his deposition,
that “combining said local process modifications with
constraint distances in said system of initial constraints,”
as recited in independent claim 1, cannot be satisfied by
adding an entirely new constraint to the system of initial
constraints. Id. at 42 (citing Ex. 2013, 65:15–19). IYM
asserts that RPX’s reading of Côté is exactly what Dr.
Nagel believes is not covered by the aforementioned
“combining” limitation—namely, feeding additional
constraints 518 into layout optimizer 520, in addition to
the initial constraints derived from design rules 505. Id.
(citing Pet. 29, 30, 34; Ex. 1002 ¶¶ 158, 159, 172; Ex. 2012
¶ 87).
Lastly, IYM contends that RPX improperly relies
on Dr. Nagel’s testimony to recreate the challenged

App. 34
claims from Côté’s inadequate disclosure. PO Resp. 42.
According to IYM, Côté’s disclosure is missing the
entire method step of “constructing new local constraint
distances by combining said local process modifications
with constraint distances in said system of initial
constraints,” as recited in independent claim 1. Id. at 42–
43 (citing Ex. 2012 ¶ 88). IYM asserts that, contrary to
precedent from the U.S. Court of Appeals for the
Federal Circuit, RPX relies on Dr. Nagel’s conclusory
testimony, unsupported by documentary evidence, to fill
the gaps in the teachings of Côté. See id. at 43 (first
citing Motorola, 121 F.3d at 1473; and then citing Zoltek
Corp. v. United States, 815 F.3d 1302, 1309–14 (Fed. Cir.
2016)).
In its Reply, RPX counters that Côté’s additional
constraints 518, which are constructed from the initial
distances imposed by initial design rules 505 in a local
area, as well as the local process modifications
determined from running simulations on layout 510,
teach the claimed “new local constraint distances.” Pet.
Reply 8 (citing Pet. 33–35; Ex. 1004, 2:10–12, 5:31–36,
6:9–17). RPX disagrees with IYM’s primary argument
that Côté’s additional constraints 518 do not constitute
the claimed “new local constraint distances” because
they are not constructed in the manner required by
independent claim 1. Id. at 11. RPX asserts that this
argument ignores Côté’s actual teachings and
mischaracterizes
Dr.
Nagel’s
cross-examination
testimony. Id.
RPX also disagrees with IYM’s argument that
Côté never explains how to compute additional
constraints 518, nor does it explain how to compute their
numerical values. Pet. Reply 11. RPX contends that a
particular algorithm for computing numerical values is

App. 35
irrelevant because no specific algorithm is claimed. Id.
RPX also argues that IYM fails to consider Côté, as a
whole. Id. at 12. RPX further contends that, IYM’s
declarant, Dr. Bernstein conceded that a person of
ordinary skill in the art would have known that
“constraints” are “limits on geometry parameters of the
layout object in the design layout.” Id. (citing Ex. 2012 ¶
49; Ex. 1027, 52:2–12). RPX then argues that Côté’s
constraints are consistent with this construction because
they can impose minimum distances. Id. (citing Ex. 1004,
1:59–60). RPX asserts that, as explained in the Petition,
Côté’s description of “‘additional constraints [518]’ to
address local layout requirements discloses an ‘initial
distance required by an initial constraint’ and a
‘modification’ to that constraint distance to address local
layout requirements.” Id. (citing Pet. 33–34; Ex. 1002 ¶¶
168–171).
Next, RPX acknowledges that both the Petition
and Dr. Nagel cite to Figure 6 of Côté as informing the
meaning of additional constraints 518. Pet. Reply 12
(citing Pet. 33–34; Ex. 1002 ¶ 171). RPX, however,
disagrees with IYM’s assertion that Figure 6 is not
applicable to constraints because its corresponding
description does not mention constraints at all. Id.
According to RPX, a person of ordinary skill in the art
reading Côté, as a whole, would have understood that
Figure 6 illustrates optimizing a layout by using the
additional constraints that modify the initial constraint
distances. Id. at 13 (citing Pet. 33–34; Ex. 1002 ¶¶ 168–
171).
RPX further contends that the theoretical
alternatives IYM proposes to Dr. Nagel during his
cross-examination testimony are irrelevant because a
person of ordinary skill in the art would have understood

App. 36
that Côté teaches computing additional constraints 518
in the manner required by independent claim 1. Pet.
Reply 13. RPX also disagrees with IYM’s argument that
RPX’s reading of Côté somehow contradicts Dr. Nagel’s
belief as to what is required by independent claim 1. Id.
at 14. According to RPX, Dr. Nagel testified that the
method step of “combining . . . local process
modifications with constraint distances in [a] system of
initial constraints” cannot be satisfied by forming an
entirely new constraint that is not constructed from an
initial constraint. Id. RPX then reiterates its argument
that Côté’s additional constraints 518 are constructed by
combining local process modifications determined from
running simulations on layout 510 with the initial
distances imposed by initial design rules 505 on the local
area. Id. RPX argues that Dr. Nagel never said that an
additional constraint constructed from an initial
constraint does not satisfy independent claim 1 if that
additional constraint is fed into an optimizer along with
the initial constraint, and RPX asserts nothing in
independent claim 1 excludes that possibility. Id.
Lastly, RPX contends that IYM’s reliance on the
Motorola and Zoltek cases are inapposite. Pet. Reply 14.
RPX argues that these two cases are distinguishable
from the circumstances presented here because (1)
Motorola was a case based on anticipation where the
party solely relied on expert testimony to account for a
limitation; and (2) Zoltek was a case that involved claims
requiring a specific mathematical relationship missing
from the asserted prior art. Id. (first citing Motorola,
121 F.3d at 1472–73; and then citing Zoltek, 815 F.3d at
1309–11). In contrast, RPX argues that it relies on
specific teachings in Côté to account for the claimed
“new local constraint distances,” and it relies on Dr.

App. 37
Nagel’s supporting testimony to explain how a person of
ordinary skill in the art would have understood these
teachings in Côté. Id. at 14-15 (citing Pet. 8, 32–35).
In its Sur-Reply, IYM reiterates its argument
that Côté discloses certain constraints, such as area
constraints and fixed edge positions, which do not
involve or require constraint distances. PO Sur-Reply 6
(citing PO Resp. 37–40; Ex. 1004, 5:30–33; Ex. 1027,
19:16–24, 255:4–10, 279:11–282:22). In addition, IYM
reiterates its argument that Côté’s additional
constraints 518 are not obtained “by combining . . . local
process modifications with constraint distances in [a]
system of initial constraints,” as recited in independent
claim 1. Id. at 6–7 (citing PO Resp. 40–41). According to
IYM, RPX’s theory of unpatentability requires Côté to
disclose explicitly the claimed “new local constraint
distances.” Id. at 7. IYM asserts that it is not enough
that Côté’s additional constraints 518 can be constraint
distances. Id.
Based on the record developed during trial, we
agree with RPX and its declarant, Dr. Nagel, that Côté’s
additional constraints 518, which are constructed by
combining the initial distances imposed by design rules
505 together with the local process modifications
determined from running simulations on layout 510,
teaches the claimed “new local constraint distances.” As
background, Côté explains that IC layouts generally are
created using a set of design rules that specify certain
constraints, “such as minimum spacings” (i.e., constraint
distances). Ex. 1004, 1:58–63. Côté, however, explains
that using design rules that specify a minimum spacing
between certain shapes may lead to sub-optimal layouts.
Id. at 2:5–7. Côté states that “[i]t may be preferable to

App. 38
use a larger spacing between shapes whenever possible
to improve ‘process latitude.’” Id. at 2:10–12.
As we explain previously, when addressing how
Côté teaches the claimed “local process modifications,”
Côté discloses making changes to initial design rules 505
that result from running simulations on layout 510. Ex.
1004, 5:12–33, 6:9–17, 6:31–40, Figs. 5, 7. These changes
to the initial design rules 505 are used to construct
additional constraints 518, which, in turn, are fed into
layout optimizer 520 to “further optimize[]” layout 510.
Id. at 5:31–36, Fig. 5. The portion of Figure 6 of Côté,
reproduced below, serves as one example of the layout
optimization illustrated in Figure 5 of Côté. Id. at 3:57–
59, 5:66–67.

This portion of Figure 6, reproduced above, illustrates
original target layout T with two features spaced a
certain distance d1 apart and new target layout T' with
the same two features “spaced further apart” that
results in improved process latitude. Id. at 6:9–12. Based
on this portion of Figure 6, we find that additional
constraints imposed upon new target layout T' is a
combination of the initial distance required by the
original design rules (i.e., distance d1) together with the
local process modifications determined from running
simulations on original target layout T (i.e., the increase

App. 39
in distance between the two features that results in
improved process latitude).
Based on these and other disclosures in Côté,
RPX’s declarant, Dr. Nagel, testifies that “Côté
describes how the ‘additional constraints [518]’ are
determined from the local process modifications and
from initial constraints.” Ex. 1002 ¶ 170; see also id. ¶
171 (testifying that “Côté describes that these new local
constraint distances are constructed based on both the
initial distances required by an initial constraint in a
local area, as well as the local process modifications
determined from the simulating” (citing Ex. 1004, 2:10–
12, 6:9–17)). Dr. Nagel further testifies that Côté’s
additional constraints 518 constitute “new ‘constraint
distances’ that are applied to the local area of the layout,
which are thus ‘new local constraint distances,’ in the
language of [independent] claim 1.” Id. ¶ 170. We credit
Dr. Nagel’s testimony in this regard because it is
consistent with Côté’s disclosure that additional
constraints 518 are constructed by combining the initial
distances imposed by design rules 505 together with the
local process modifications determined from running
simulations on layout 510.
We do not agree with IYM’s argument that
Côté’s additional constraints 518 do not constitute the
claimed “new local constraint distances” because Côté
discloses some constraints that do not involve or require
constraint distances. See PO Resp. 37–41; PO Sur-Reply
6–7. There is no dispute between the parties that the
claim term “constraint” should be construed as “limits
on geometry parameters of the layout objects in the
design layout.” Compare Pet. 28–29, with PO Resp. 14–
17. During oral argument, the parties agreed that this
claim term encompasses both minimum and maximum

App. 40
constraints. See Tr. 44:16–19 (explaining that
independent claim 1 “does not limit the constraint
distances to be a minimum or a maximum”), 45:1–10
(agreeing that the word “limits” referred to in the
parties’ agreed upon construction of the claim term
“constraint” is not restricted to minimums or
maximums), 99:13–15 (agreeing that independent claim 1
does not require minimum or maximum constraints).
As we explain above, Côté explains that IC
layouts generally are created using a set of design rules
that specify certain constraints, “such as minimum
spacings” (i.e., constraint distances). Ex. 1004, 1:58–63.
Indeed, the layout generation and enhancement process
illustrated in Figure 5 of Côté provides one example of a
constraint distance because it illustrates feeding
additional constraints 518 into layout optimizer 520 to
further optimize layout 510. Id. at 5:30–36, Fig. 5. Figure
6 of Côté provides another example of a constraint
distance because it illustrates increasing the distance
between two features in new target layout T' to improve
process latitude. Id. at 6:9–12, Fig. 6. The teachings of
Côté identified above are consistent with the parties’
agreed upon construction of the claim term “constraint”
because the constraint distances taught by Côté (e.g.,
additional constraints 518 or distance increase between
the two features in new target layout T') places
minimum or maximum limits on geometry parameters of
layout objects in a design layout (e.g., layout 510 or new
target layout T').
We also do not agree with IYM’s argument that
Dr. Nagel’s cross-examination testimony contradicts his
initial testimony that Côté’s additional constraints 518
constitute the claimed “new local constraint distances.”
See PO Resp. 41–42. To support this argument, IYM

App. 41
directs us to the following statement elicited from Dr.
Nagel during cross-examination: “The ‘combining said
local process modifications with constraint distances in
said system of initial constraints’ does not mean adding
additional constraints that were heretofore not in the
system of initial constraints.” Ex. 2013, 65:15–19.
Although somewhat difficult to decipher, we do not
understand Dr. Nagel to take the position that the
aforementioned “combining” method step cannot be
satisfied by adding an entirely new constraint to the
system of initial constraints, as asserted by IYM. PO
Resp. 42. Instead, a reasonable reading of this cited
testimony is that constructing additional constraints
requires determining the initial constraints imposed
upon local areas of the design layout. This reading is
consistent with Dr. Nagel’s testimony accompanying the
Petition. See Ex. 1002 ¶¶ 168–172.
Regardless of how we decipher the portion of Dr.
Nagel’s cross-examination testimony identified above,
IYM treats this cross-examination testimony as though
it was articulated and relied on by RPX in the Petition.
As we explain previously, we agree with RPX and Dr.
Nagel that Côté’s additional constraints 518, which are
constructed by combining the initial distances imposed
by design rules 505 together with the local process
modifications determined from running simulations on
layout 510, teach the claimed “new local constraint
distances.” We did not rely upon the aforementioned
portions of Dr. Nagel’s cross-examination testimony
when determining whether the teachings of Côté
account for this disputed limitation. Stated differently,
the testimony elicited from Dr. Nagel during crossexamination does not undermine the evidence presented
and developed by RPX in the Petition, or otherwise

App. 42
render Dr. Nagel’s supporting testimony provided in the
Declaration accompanying the Petition less persuasive.
Lastly, we do not agree with IYM’s argument
that RPX improperly relies on Dr. Nagel’s testimony to
fill gaps in the teachings of Côté. See PO Resp. 42–43.
To support this argument, IYM directs us to the
Motorola and Zoltek cases, both of which are
distinguishable from the circumstances presented here.
Beginning with Motorola, IYM relies on this case to
support its assertion that we cannot rely on Dr. Nagel’s
testimony to supplant the teachings of Côté itself.
Motorola, however, addressed a jury’s invalidity findings
and, in particular, whether an asserted prior art
reference anticipated a claim of the involved patent. 121
F.3d at 1472. The Federal Circuit determined that the
jury’s verdict could not stand because it was
impermissible to rely on an expert’s conclusory
testimony, unsupported by documentary evidence, to
supplant the anticipatory disclosure of the asserted prior
art reference itself. Id. at 1472–73. In contrast, the
ground at issue here is one based on obviousness—not
anticipation—over the teachings of Côté. A proper
obviousness evaluation requires us to consider Dr.
Nagel’s testimony explaining the teachings of Côté
relied on by RPX from the perspective of a person of
ordinary skill in the art. See Sundance, Inc. v. DeMonte
Fabricating Ltd., 550 F.3d 1356, 1361 n.3 (Fed. Cir.
2008) (“What a prior art reference discloses or teaches is
determined from the perspective of one of ordinary skill
in the art.”).
Turning to Zoltek, the Federal Circuit
determined that certain claims in a reissue patent were
not rendered obvious because the expert testimony was
replete with examples of impermissible hindsight

App. 43
reconstruction. 815 F.3d at 1309–14. In contrast, apart
from a few unsupported assertions, IYM does not
explain adequately how Dr. Nagel’s testimony is
distorted by hindsight or how it is based on ex post
reasoning. Contrary to IYM’s assertions, there is no
need for Dr. Nagel to recreate the entire method step of
“constructing new local constraint distances by
combining . . . local process modifications with constraint
distances in [a] system of initial constraints,” as recited
in independent claim 1. As we explain previously, Côté
teaches this method step because additional constraints
518 are constructed by combining the initial distances
imposed by design rules 505 together with the local
process modifications determined from running
simulations on layout 510.

d. IYM’s Remaining Arguments
In its Patent Owner Response, IYM contends
that Côté lacks sufficient details to render the
challenged claims obvious. PO Resp. 48. To support this
argument, IYM directs us to Côté’s teachings with
respect to process simulator 512, image analyzer 516,
and layout optimizer 520, along with the crossexamination testimony of RPX’s declarant, Dr. Nagel.
Id. at 48–52 (citing Ex. 1004, 5:17–19, 5:30–34, Figs. 5, 7;
Ex. 2013, 106:8–108:9, 110:11–112:18, 177:13–178:11,
182:18–24, 189:2–190:5; Ex. 2012 ¶¶ 95–99). IYM then
asserts that Côté adds nothing to the image analysis
used in the prior art hotspot fixing procedure that was
recognized by a provisional filing of the ’012 patent. Id.

App. 44
at 51 (citing Ex. 2014, 4–53); see also id. at 52 (arguing
that Côté “provides no technical advance over this prior
art [hotspot fixing procedure]”).
We do not agree that Côté’s teachings lack
sufficient detail to render the challenged claims obvious
because, as we explain previously, Côté accounts for the
limitations at issue, particularly when its teachings are
viewed from the perspective of a person of ordinary skill
in the art. To the extent IYM argues that the teachings
of Côté cannot be used to render certain features of the
challenged claims obvious because Côté is not directed
to the same problem addressed by the ’012 patent (i.e.,
fixing or eliminating hotspots in IC manufacturing), we
also do not agree. See PO Resp. 48–52. It is well-settled
that “[t]he use of patents as references is not limited to
what the patentees describe as their own inventions or
to the problems with which they are concerned.” In re
Heck, 699 F.2d 1331, 1333 (Fed. Cir. 1983) (quoting In re
Lemelson, 397 F.2d 1006, 1009 (CCPA 1968)); see also
EWP Corp. v. Reliance Universal Inc., 755 F.2d 898, 907
(Fed. Cir. 1985) (“A reference must be considered for
everything that it teaches by way of technology and is
not limited to the particular invention it is describing
and attempting to protect.”). As a result, it is incumbent
upon us to consider Côté for everything it teaches,
regardless if it does not state explicitly that its
optimization addresses hotspots in IC manufacturing.

3

All references to the page numbers in Exhibit 2014
refer to the page numbers inserted by IYM in the
bottom, right-hand corner of each page.

App. 45
IYM also contends that a person of ordinary skill
in the art cannot provide the limitations purportedly
missing from Côté—namely, the claimed “local process
modifications” and “new local constraint distances.” PO
Resp. 53–54 (citing Ex. 2012 ¶ 102). Stated differently,
IYM contends that RPX has not provided any evidence
that a person of ordinary skill in the art would have
found it obvious to add the limitations that Côté
purportedly lacks. Id. at 55.
We do not agree with IYM’s arguments in this
regard because, as we explain previously, it is
permissible for RPX to rely on the teachings of Côté
together with the supporting testimony of Dr. Nagel in
analyzing obviousness. See Monsanto, 878 F.3d at 1346–
47. Indeed, a proper obviousness evaluation requires us
to consider Dr. Nagel’s testimony explaining the
teachings of Côté from the perspective of a person of
ordinary skill in the art. See Sundance, 550 F.3d at 1361
n.3. With this in mind, we agree with RPX’s arguments
and evidence demonstrating that Côté teaches the
claimed “local process modifications” and “new local
constraint distances.” See supra Section II.B.4.a–c.

e. Remaining Limitations
In its Patent Owner Response, IYM does not
address separately whether Côté teaches the remaining
limitations of independent claim 1. See generally PO
Resp. 30–57. We have reviewed RPX’s explanations and
supporting evidence as to how Côté teaches these
remaining limitations, and we agree with and adopt
RPX’s analysis. See Pet. 23–31, 35–38.

e. Summary
In summary, RPX has demonstrated by a
preponderance of the evidence that the subject matter of

App. 46
independent claim 1 would have been obvious over the
teachings of Côté.

5. Claims 2 and 3
Claim 2 depends from independent claim 1, and
recites “wherein the layout received is organized in a
single level.” Ex. 1001, 8:36–37. Dependent claim 3 also
depends from independent claim 1, and further recites
“wherein the layout received is organized in a
hierarchical data structure.” Id. at 8:38–39.
In its Petition, RPX contends that a person of
ordinary skill in the art would have understood that the
claim term “single level” refers to a flat data structure.
Pet. 58 (citing Ex. 1001, 3:6–10; Ex. 1002 ¶ 253). RPX
also contends that a person of ordinary skill in the art
would have understood that there are two well-known
types of data structures for organizing data—namely, (1)
a flat (single level) data structure; and (2) a hierarchical
(nested) data structure. Id. (citing Ex. 1002 ¶ 254). For
example, RPX asserts that Graphic Design System and
Caltech Intermediate Form were well-known layout
formats that could be both flat and hierarchical. Id.
According to RPX, a person of ordinary skill in the art
would have appreciated the merits of both formats,
depending on his/her goals or priorities for a given
implementation, and would have used well-known
criteria to make a selection. Id. at 58–59 (citing Ex. 1002
¶ 255).
RPX further contends that a person of ordinary
skill in the art would have found it obvious for Côté’s
layout 510 to be either a flat or hierarchical layout
format, and would have recognized the selection of one
over the other as a simple matter of design choice. Pet.
59 (citing Ex. 1002 ¶ 256). RPX argues that, even if a
person of ordinary skill in the art would not have

App. 47
understood Côté to teach these layout formats, it would
have been a conventional, expected, and obvious way for
a person of ordinary skill in the art to format Côté’s
layout 510. Id.
In its Patent Owner Response, IYM does not
address separately whether Côté teaches the limitations
of dependent claims 2 and 3. See generally PO Resp. 30–
62. We have reviewed RPX’s explanations and
supporting evidence as to how Côté teaches these
limitations, and we agree with and adopt RPX’s analysis.
See Pet. 38, 58–59. Accordingly, RPX has demonstrated
by a preponderance of the evidence that the subject
matter of dependent claims 2 and 3 would have been
obvious over the teachings of Côté.

6. Claim 5
Claim 5 depends from independent claim 1, and
recites “wherein the step of constructing initial
constraints is accomplished using information
comprising coordinates of said layout objects, design
rules and circuit requirements.” Ex. 1001, 8:44–47.
In its Petition, RPX directs us to its explanation
and supporting evidence as to how Côté teaches
constructing initial constraints imposed by design rules
505 in the context of independent claim 1. Pet. 38. RPX
also contends that Côté teaches this limitation because it
discloses constructing initial constraints with layout
object coordinate information. Id. at 38–39 (citing Ex.
1004, 1:58–61, 2:1–4, 2:6–7, 2:41–44, Fig. 6; Ex. 1002 ¶¶
189–192). Next, RPX contends that the ’012 patent does
not define circuit requirements nor does it disclose
receiving circuit requirements. Id. at 39 (citing Ex. 1001,
3:5–11, 3:16–17, 3:36–37). Instead, RPX argues that the
’012 patent merely discloses that constructing initial
constraints from circuit requirements involves

App. 48
considering the geometries of layout objects in setting
constraints based on circuit requirements. Id. (citing Ex.
1001, 3:36–42). RPX then argues that, to the extent
initial constraints from circuit requirements require
consideration of electrical characteristics, Côté teaches
this limitation because it discloses determining
“capacitance and resistance of wires” and producing
“netlist” files that include “resistance and capacitance
parameters.” Id. at 40 (quoting Ex. 1004, 4:46–59).
According to RPX, Côté’s layout with built-in electrical
characteristics produces the system of initial constraints
required by dependent claim 5. Id. (citing Ex. 1002 ¶¶
193, 194).
In its Patent Owner Response, IYM does not
address separately whether Côté teaches the limitation
of dependent claim 5. See generally PO Resp. 30–62. We
have reviewed RPX’s explanations and supporting
evidence as to how Côté teaches this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 38–40.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 5 would have been obvious over the
teachings of Côté.

7. Claim 13
Claim 13 depends from independent claim 1, and
recites “wherein the system of initial constraints
comprises linear constraints comprising minimal width,
minimal space, minimal overlap, minimal enclosure,
minimal extension, and fixed size.” Ex. 1001, 9:16–19.
In its Petition, RPX contends that the claimed
“linear constraints” are basic components of standard
design rules that are well-known in the art. Pet. 59
(citing Ex. 1002 ¶¶ 257–262). RPX further argues that
Côté teaches this limitation because it discloses that IC

App. 49
layouts generally are created using a set of design rules
that specify certain constraints, “such as minimum
spacings or minimum line widths” and a “fixed” layout
area. Id. (quoting Ex. 1004, 1:58–64, 5:44–46). RPX
asserts that a person of ordinary skill in the art would
have understood that all the claimed “linear constraints”
are part of Côté’s “initial constraints” imposed by design
rules 505 and were disclosed in standard design rules
long before the ’012 patent. Id. at 59–60 (citing Ex. 1002
¶¶ 260–262).
In its Patent Owner Response, IYM does not
address separately whether Côté teaches the limitation
of dependent claim 13. See generally PO Resp. 30–62.
We have reviewed RPX’s explanations and supporting
evidence as to how Côté teaches this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 38, 59–60.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 13 would have been obvious over the
teachings of Côté.

8. Claim 14
Claim 14 depends from independent claim 1, and
recites “wherein the step of enforcing new local
constraint distance comprises applying a heuristic
search procedure.” Ex. 1001, 9:20–22.
In its Petition, RPX contends that, unlike
optimization, “a heuristic search procedure” may not
generate an optimal outcome. Pet. 40 (citing Ex. 1002 ¶¶
196–198). RPX argues that a person of ordinary skill in
the art would have known that heuristic solutions, as
recognized by Chen’s “single-error removal procedure”
disclosed in the ’012 patent, are alternatives to
optimization. Id. (citing Ex. 1001, 4:49). Relying on the
testimony of Dr. Nagel, RPX argues that heuristic

App. 50
procedures were well-known in the art of computerimplemented IC layouts. Id. (citing Ex. 1002 ¶ 198). RPX
asserts that a person of ordinary skill in the art would
have recognized that using a heuristic search procedure
to enforce a new local constraint distance in lieu of
Côté’s optimization would have been a matter of design
choice. Id.
In its Patent Owner Response, IYM contends
that Côté does not teach the claimed “heuristic search
procedure.” PO Resp. 58. IYM argues that Côté
discloses layout optimizer 520, but does not provide any
details regarding its structure or operation. Id. (citing
Pet. 7, 36, 43, 53; Ex. 1002 ¶¶ 179, 200, 228; Ex. 2013,
215:13–21). In addition, IYM argues that RPX’s
declarant, Dr. Nagel, purportedly agreed that Côté does
not teach the claimed “heuristic search procedure”
because, during his deposition, he stated that “[n]owhere
in . . . the Côté patent is there a description of a heuristic
search procedure, no.” Id. (quoting Ex. 2013, 214:25–
215:2) (citing Ex. 2012 ¶ 107).
IYM further contends that it would not have been
obvious to substitute optimization performed by Côté’s
layout optimizer 520 with a heuristic search procedure.
PO Resp. 58. According to IYM, the only evidence that
might support such a conclusion for obviousness comes
from the ’012 patent itself. Id. at 59 (citing Pet. 40; Ex.
2012 ¶ 108). IYM argues that the ’012 patent’s own
disclosure cannot support such a conclusion of
obviousness because the disclosure in question is found
in the description of the preferred embodiment of the
invention—not in the background section. Id. at 59–60.
Lastly, IYM disagrees with RPX’s contention
that substituting a heuristic search procedure for the
optimization performed by Côté’s layout optimizer 520

App. 51
would have been a matter of design choice. PO Resp. 60.
IYM reiterates that Côté does not mention heuristic
search procedures, but rather relies on well-known
optimization methods to address problems formulated in
terms of linear constraints. Id. IYM argues that the
Petition does not cite to a single piece of evidence
outside the ’012 patent that would have provided the
necessary motivation for a person of ordinary skill in the
art to use a heuristic search procedure in lieu of the
optimization performed by Côté’s layout optimizer 520.
Id. at 61. IYM recognizes that Dr. Nagel’s supporting
testimony references Allan as teaching a heuristic
search procedure, but IYM asserts that Allan is not part
of the instituted grounds in this proceeding, nor did Dr.
Nagel explain how or why a person of ordinary skill in
the art would have combined the teachings of Côté with
those of Allan. Id. (citing Ex. 1015; Ex. 2012 ¶ 111).
In its Reply, RPX contends that IYM
mischaracterizes its argument regarding how Côté
renders dependent claim 14 obvious. Pet. Reply 25. RPX
argues that it did not rely on any statement in the ’012
patent for motivation to use heuristic search procedures
in Côté, but rather it relied on the fact that using such
procedures was a known design choice for layout
optimization, as evidenced by Allan. Id. (citing Pet. 40;
Ex. 1002 ¶ 198). Contrary to IYM’s assertions, RPX
argues that it is permissible for it to rely on the
teachings of Allan, even though Allan is not part of the
instituted grounds in this proceeding, because it serves
as evidence of the general background knowledge of a
person of ordinary skill in the art. Id.
In its Sur-Reply, IYM contends that RPX’s
argument that heuristic search procedures were wellknown in the prior art is not enough for purposes of

App. 52
demonstrating obviousness. PO Sur-Reply 9. IYM
argues that RPX cannot rely on the conclusory
testimony of Dr. Nagel to support its argument that
using a heuristic search procedure “would have been a
matter of design choice.” Id. at 10. IYM also argues that
RPX cannot hide behind the fact that Allan is evidence
of the general background knowledge of a person of
ordinary skill in the art to avoid providing the
explanation and evidentiary support that RPX would
have been obligated to provide if Allan was part of the
instituted grounds in this proceeding. Id.
Based on the record developed during trial, we
agree with RPX that heuristic search procedures were
old and well-known in the art, and a person of ordinary
skill in the art would have recognized that such a
procedure was a viable substitute for the optimization
performed by Côté’s layout optimizer 520. We begin our
analysis by noting that dependent claim 14 does not
require a specific heuristic search procedure because it
simply states, in relevant part, “a heuristic search
procedure.” Ex. 1001, 9:21–22. Outside of dependent
claim 14, the word “heuristic procedures” appears in the
specification of the ’012 patent only once. For
convenience, the relevant portion of the specification is
reproduced below.
In another preferred embodiment, the violations
to local constraints are removed one at a time
using heuristic procedures. For example, the
single error removal procedure described by
Zhan Chen in “Layout and Logic Techniques for
Yield and Reliability Enhancement”, Ph.D.
Thesis, University of Massachusetts Amherst,
1998, can be applied to fix isolated violations. It is

App. 53
particularly useful when processing hotspots are
few.

Id. at 4:47–54 (emphasis added). This portion of the

specification indicates that Chen’s “single error removal
procedure,” which is admitted prior art to the ’012
patent regardless of the fact the disclosure cited above
appears in the detailed description, is a heuristic search
procedure that is capable of being used to remove
violations to local constraints in an IC layout. The
specification does not include any other discussions of
heuristic search procedures, examples of what those
might be, or how they operate in the context of the
claimed invention.
Based on the aforementioned disclosure in the
specification of the ’012 patent, we agree with RPX and
Dr. Nagel that heuristic search procedures were old and
well-known in the art of computer-implemented IC
layout, as evidenced by Chen’s “single error removal
procedure.” Pet. 40; Ex. 1002 ¶ 198. Taking this general
background knowledge of one of ordinary skill in the art,
we agree with RPX that it would have been a matter of
design choice to substitute the optimization performed
by Côté’s layout optimizer 520 with a heuristic search
procedure, such as Chen’s “single error removal
procedure.” See Pet. 40. The evidence of record suggests
that implementing Chen’s “single error removal
procedure” in a computer-implemented IC layout, as
taught by Côté, would not have been uniquely
challenging or otherwise beyond the skill level of an
ordinary skilled artisan. See Leapfrog Enters., Inc. v.
Fisher-Price, Inc., 485 F.3d 1157, 1161 (Fed. Cir. 2007)
(citing KSR, 550 U.S. at 418). The record before us does
not include credible evidence to the contrary.

App. 54
We do not agree with IYM’s argument that the
’012 patent’s disclosure regarding Chen’s “single error
removal procedure” cannot be treated as admitted prior
art because this disclosure is found in the detailed
description section of the ’012 patent—not in the
background or prior art section. See PO Resp. 59–60. It
is well settled that admissions in a specification
regarding prior art are not limited to a particular section
of the specification. See, e.g., PharmaStem Therapeutics,
Inc. v. ViaCell, Inc., 491 F.3d 1342, 1362 (Fed. Cir. 2007)
(“Admissions in the specification regarding the prior art
are binding on the patentee for purposes of a later
inquiry into obviousness.”); In re Nomiya, 509 F.2d 566,
571 (CCPA 1975) (holding applicant’s labeling of two
figures in the application drawings as “prior art” to be
an admission that what was pictured was prior art
relative to applicant’s improvement). Nevertheless,
during oral argument, when questioning IYM’s counsel
as to how Chen should be treated in the context of an
obviousness evaluation of dependent claim 14, IYM’s
counsel stated, “to be clear, Chen is prior art.” Tr. 73:7–
15. In our view, this statement is an admission that Chen
qualifies as admitted prior art and, therefore, is binding
on IYM in this obviousness inquiry. See Riverwood Int’l
Corp. v. R.A. Jones & Co., 324 F.3d 1346, 1354 (Fed. Cir.
2003) (“Valid prior art may be created by the admissions
of the parties.”).
There is another reason we agree with RPX that
heuristic search procedures were old and well-known in
the art and, a person of ordinary skill in the art would
have recognized that such a procedure is a viable
substitute for the optimization performed by Côté’s
layout optimizer 520. When addressing dependent claim
14, Dr. Nagel testifies that Allan’s “heuristic approach to

App. 55
adjusting a layout to account for local conditions” serves
as evidence that heuristic search procedures are old and
well-known in the art of IC layouts. Ex. 1002 ¶ 198
(citing Ex. 1015). Allan, which is titled “Computer-Aided
Design of Integrated Circuits and Systems,” was
published in November 1992 and, therefore, qualifies as
prior art to the ’012 patent. Ex. 1015, Title page. Allan
discloses that its “LocDes Program” “uses a heuristic
algorithm that makes adjustments iteratively such that
changes in layout geometry occur in a number of small
steps.” Id. at 1356.
Although IYM is correct that Allan was not part
of the instituted grounds in this proceeding (PO Resp.
61; PO Sur-Reply 10), it is still incumbent upon us to
consider its evidentiary value. The Federal Circuit has
recognized that evidence submitted with the Petition
may be considered to demonstrate the knowledge that
one of skill in the art “would bring to bear in reading the
prior art identified as producing obviousness.” Ariosa
Diagnostics v. Verinata Health, Inc., 805 F.3d 1359, 1365
(Fed. Cir. 2015); see also Randall Mfg. v. Rea, 733 F.3d
1355, 1362–63 (Fed. Cir. 2013) (emphasizing that
additional prior art references or evidence are not for
the purpose of changing the prior art combination that
forms the basis of the asserted ground, but rather are
merely for the purpose of providing evidence of the state
of the art, including the general background knowledge
of a person of ordinary skill in the art). Here, we view
Allan, particularly its disclosure of using a heuristic
algorithm in the context of computer-aided design of
ICs, to fall within the purview of permissible evidence
we may consider in our obviousness evaluation of
dependent claim 14. Upon considering this evidence, we
agree with RPX that it would have been a matter of

App. 56
design choice to substitute the optimization performed
by Côté’s layout optimizer 520 with a heuristic search
procedure, such as the heuristic algorithm used by
Allan’s LocDes Program. See Pet. 40; Ex. 1002 ¶ 198;
Ex. 1015, 1356.
In summary, RPX has demonstrated by a
preponderance of the evidence that the subject matter of
dependent claim 14 would have been obvious over the
teachings of Côté and the general background
knowledge of one of ordinary skill in the art.

C. Obviousness Over the Combined Teachings of Côté
and Bamji
RPX contends that claims 1–3, 5, 10, 11, and 13 of
the ’012 patent are unpatentable under § 103(a) over the
combined teachings of Côté and Bamji. Pet. 41–60. RPX
explains how this proffered combination teaches or
suggests the subject matter of each challenged claim,
and provides reasoning as to why one of ordinary skill in
the art would have been prompted to modify or combine
the teachings of these references. Id. RPX also relies on
the Declaration of Dr. Nagel to support its positions. Ex.
1002 ¶¶ 200–263. In its Patent Owner Response, IYM
contends that Bamji does not remedy the deficiencies in
the teachings of Côté identified above in the ground
based on obviousness over Côté alone. PO Resp. 62–64.
IYM relies upon the Declaration of Dr. Bernstein to
support its positions. Ex. 2012 ¶¶ 113–115.
We begin our analysis with a brief overview of
Bamji, and then we address the parties’ contentions with
respect to the claims at issue in this asserted ground.

1. Bamji Overview
Bamji generally relates to the field of computer
aided design and the analysis of structural systems, such

App. 57
as ICs. Ex. 1005, 1:11–13. In particular, Bamji discloses
methods and systems for optimizing performance
criteria, such as fabrication yield for ICs. Id. at 1:13–15.
As background, Bamji discloses that conventional
methods for improving yield fall into the following two
categories: (1) layout topology is changed to improve
yield; and (2) layout topology is fixed. Id. at 1:44–65.
These methods, however, cannot be extended to other
performance objectives. Id. at 1:66–2:1. According to
Bamji, “[t]his problem of simultaneous optimization of
multiple criteria is especially difficult to solve.” Id. at
2:7–8.
Bamji solves this and other problems by
providing a method, system and product “that
guarantees an optimized yield for an [IC].” Ex. 1005,
2:21–23. The method and system “provide optimized
yield for a fixed size IC, or alternatively, provide the
maximum number of good IC’s per wafer by increasing
the size of the IC.” Id. at 2:23–26. The method and
system also “may be used to simultaneously optimize
any number of performance criteria that have convex
cost functions.” Id. at 2:26–29. Bamji further discloses
that its mathematical models “describe[] . . .
performance criteria for the IC, such as defect
probabilities for yield, power consumption, cross-talk
delay, and the like,” with each model relying on “spacing
between layout objects.” Id. at 2:57–62.
Figure 1 of Bamji, reproduced below, illustrates a
system for optimizing fabrication yield in accordance
with one embodiment. Ex. 1005, 4:38–40.

App. 58

Figure 1, reproduced above, illustrates computer aided
design system 100. Ex. 1005, 5:6–8. Computer aided
design system 100 includes, among other things,
compactor 120 that contains constraint graph creator
130 and graph solver 140. Id. at 5:43–44. Constraint
graph creator 130 “reads a structural description of an
[IC] from the layout database 180 and creates a
constraint graph 250” (not illustrated in Fig. 1) using
conventional techniques. Id. at 5:44–49. Graph solver 140
compacts constraint graph 250, “thereby produc[ing] a
dimensionally minimized layout of the [IC].” Id. at 5:50–
52.

2. Claim 1
In its Petition, RPX relies on essentially the same
analysis discussed above in the ground based on
obviousness over Côté alone to teach all the limitations
of independent claim 1. Pet. 48–54 (citing Ex. 1002 ¶¶

App. 59
210, 211). RPX also argues that the teachings of Bamji
may be used to supplement the teachings of Côté to
account for certain limitations of independent claim 1—
namely, both “constructing” steps, the “enforcing” step,
the “updating” step, and the “whereby” clause. Id.
(citing Ex. 1005, 2:47–49, 5:25–36, 8:6–42, 20:40–41, Figs.
5a, 5b). In particular, with respect to the “whereby”
clause, RPX asserts that Bamji teaches this limitation
because it optimizes a constraint graph for yield and
other performance criteria. Id. at 54 (citing Ex. 1005,
2:57–62). Relying on the testimony of Dr. Nagel, RPX
asserts that one of ordinary skill in the art would have
understood that the combined teachings of Côté and
Bamji produce a new layout that has increased yield and
performance. Id. (citing Ex. 1002 ¶ 234).
Turning to the rationale to combine the teachings
of Côté and Bamji, RPX contends that, although Côté
teaches optimization, it does not teach a particular
optimization technique. Pet. 43 (citing Ex. 1002 ¶ 200).
Bamji, however, teaches an optimization technique that
simultaneously
optimizes
multiple
performance
objectives, as opposed to an approach that merely
optimizes yield. Id. at 44 (citing Ex. 1005, 2:6–7, 2:28–30,
2:57–62). Relying on the testimony of Dr. Nagel, RPX
asserts that one of ordinary skill in the art would have
understood that Bamji’s constraint graph optimization
technique would be well-suited for Côté’s layout
optimizer 520. Id. (citing Ex. 1002 ¶¶ 201, 202). RPX
argues that one of ordinary skill in the art would have
been motivated to use Bamji’s constraint graph
optimization technique with Côté’s layout optimizer 520
to provide simultaneous optimization of multiple
performance criteria. Id. (citing Ex. 1002 ¶ 202). Stated
differently, RPX argues that, although one of ordinary

App. 60
skill in the art would have recognized that optimizing for
yield would be important, as taught by Côté, it also
would have been desirable to optimize for IC
performance like power consumption, cross-talk, wire
length, and the like, as taught by Bamji. Id. Lastly, RPX
asserts that one of ordinary skill in the art would have
appreciated that the teachings of Côté and Bamji are
compatible, and then reiterates that Bamji’s constraint
graph optimization technique could be used as the
specific form of optimization employed by Côté’s layout
optimizer 520. Id. at 44–45 (citing Ex. 1002 ¶ 203).
In its Patent Owner Response, IYM contends
that Bamji does not remedy Côté’s purported failure to
teach “computing local process modifications” and
“constructing new local constraint distances by
combining said local process modifications with
constraint distances in [a] system of initial constraints,”
as recited in independent claim 1. PO Resp. 62 (citing
Ex. 2012 ¶ 113). IYM argues that Bamji teaches
conventional optimization techniques using only global
constraints—not local constraints. Id. at 62–63 (citing
Ex. 1005, 8:24–26, 12:26–28). To support this argument,
IYM directs us to various excerpts of Dr. Nagel’s crossexamination testimony, where he purportedly confirmed
that Bamji only relies on global design rules. Id. at 63
(citing Ex. 1002 ¶ 205; Ex. 2013, 220:9–13, 221:25–222:2,
225:7–13; Ex. 2012 ¶ 14). IYM then asserts that, because
Bamji only applies global design rules, it cannot remedy
Côté’s failure to teach the claimed “local process
modifications” and “new local constraint distances.” Id.
As we explain above in the ground based on
obviousness over Côté alone, Côté teaches the claimed
“local process modifications” and “new local constraint
distances.” See supra Section II.B.4.a–e. Consequently,

App. 61
there are not deficiencies with respect to these claim
features in the teachings of Côté for Bamji to remedy.
To the extent IYM argues that RPX cannot rely on
Bamji to teach the claimed “new local constraint
distances” because Bamji only applies global design
rules, this argument ignores or fails to appreciate RPX’s
reliance on the teachings of Côté. See PO Resp. 62–64.
As we explain previously, Côté’s additional constraints
518, which are constructed by combining the initial
distances imposed by design rules 505 together with the
local process modifications determined from running
simulations on layout 510, teaches the claimed “new local
constraint distances.” See supra Section II.B.4.c. In its
ground based on obviousness over the combined
teachings of Côté and Bamji, RPX contends that, when
Bamji’s constraint graph optimization technique is
implemented by Côté’s layout optimizer 520, Bamji’s
constraint graph would be modified based on Côté’s
additional constraints 518. Pet. 50 (citing Ex. 1002 ¶
222). At no point in this asserted ground does RPX
argue that Bamji, by itself, teaches the claimed “new
local constraint distances.” See id. at 50–51.
We have reviewed RPX’s explanations and
supporting evidence as to how the combined teachings of
Côté and Bamji account for the limitations of
independent claim 1, as well as RPX’s reasoning as to
why one of ordinary skill in the art would have been
prompted to modify their respective teachings, and we
agree with and adopt RPX’s analysis. See Pet. 43–45,
48–54. Accordingly, RPX has demonstrated by a
preponderance of the evidence that the subject matter of
independent claim 1 would have been obvious over the
combined teachings of Côté and Bamji.

App. 62

3. Claims 2, 3, and 13
RPX relies on the same analysis discussed above
in the ground based on obviousness over Côté alone to
teach the limitations of dependent claims 2, 3, and 13.
Pet. 55, 58–60. In its Patent Owner Response, IYM does
not address separately whether the combined teachings
of Côté and Bamji account for the limitations of
dependent claims 2, 3, and 13. See generally PO Resp.
62–64. We have reviewed RPX’s explanations and
supporting evidence as to how the combined teachings of
Côté and Bamji account for these limitations, and we
agree with and adopt RPX’s analysis. See Pet. 55, 58–60.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claims 2, 3, and 13 would have been obvious
over the combined teachings of Côté and Bamji.

4. Claim 5
In its Petition, RPX directs us to its explanation
and supporting evidence as to how the combined
teachings of Côté and Bamji account for constructing
initial constraints using design rules in the context of
independent claim 1. Pet. 55. RPX contends that Bamji’s
layout database 180 includes structural descriptions of
an IC, layout objects, and the coordinates of the layout
objects, all of which are used to build a constraint graph.
Id. (citing Ex. 1005, 5:18–31, 8:7–10, 8:23–26). RPX then
argues that, to the extent the claimed “circuit
requirements” are determined from geometries, Bamji
teaches this limitation because it discloses setting initial
constraints based on geometries of layout objects. Id.
Alternatively, RPX argues that, to the extent the
claimed “circuit requirements” require consideration of
electrical characteristics, Bamji teaches this limitation
because it provides for consideration of circuit

App. 63
requirements (e.g., power consumption) when
constructing initial constraints. Id. at 56 (citing Ex. 1005,
6:11–15, 7:18–22; Ex. 1002 ¶ 242). RPX asserts that a
person of ordinary skill in the art would have understood
that, to make use of Bamji’s power consumption model
190c, electrical characteristics would be considered in
building its constraint graphs. Id. (citing Ex. 1002 ¶¶
237–242).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté and Bamji account for the limitation of dependent
claim 5. See generally PO Resp. 62–64. We have
reviewed RPX’s explanations and supporting evidence
as to how the combined teachings of Côté and Bamji
account for this limitation, and we agree with and adopt
RPX’s analysis. See Pet. 55–56. Accordingly, RPX has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claim 5 would have been
obvious over the combined teachings of Côté and Bamji.

5. Claim 10
Claim 10 depends from independent claim 1, and
recites “wherein the step of enforcing new local
constraint distances comprises optimizing a predefined
objective
function
for
optimizing
measurable
performance of a layout, subject to said new local
constraint distances.” Ex. 1001, 8:66–9:3.
In its Petition, RPX contends that the Côté and
Bamji combination would have used Bamji’s constraint
graph optimization technique and, as a result, this
combination teaches the limitation of dependent claim
10. Pet. 56. RPX argues that Bamji discloses minimizing
one or more “predefined” cost functions (i.e., a function
of the “spacing between two layout objects”), including
cost functions derived from performance models that

App. 64
include power consumption, wire length, cross-talk, etc.
Id. (quoting Ex. 1005, 7:34–52) (citing Ex. 1005, 2:57–62,
3:1–15). RPX further argues that Bamji discloses that
the cost functions account for the distances specified by
the design rules. Id. (citing Ex. 1005, 8:23–30). RPX then
asserts that, in the Côté and Bamji combination, a
person of ordinary skill in the art would have understood
that Côté’s additional constraints 518 would have been
combined with the initial constraints in Bamji’s
constraint graph to yield new enforceable constraints.
Id. at 56–57.
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté and Bamji account for the limitation of dependent
claim 10. See generally PO Resp. 62–64. We have
reviewed RPX’s explanations and supporting evidence
as to how the combined teachings of Côté and Bamji
account for this limitation, and we agree with and adopt
RPX’s analysis. See Pet. 56–57. Accordingly, RPX has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claim 10 would have
been obvious over the combined teachings of Côté and
Bamji.

6. Claim 11
Claim 11 depends from independent claim 1, and
recites the following:
wherein the step of enforcing new local constraint
distances comprises receiving coefficients for an
objective function selected from a group
consisting of objective function for legalizing the
layout with minimal changes from the original
layout, objective function for minimizing, and
objective function for minimizing the layout area,
subject to said new local constraint distances.

App. 65
Ex. 1001, 9:4–10.
In its Petition, RPX contends that dependent
claim 11 is written in Markush format because it recites
“selected from a group consisting of” and, therefore, the
combined teachings of Côté and Bamji need only account
for one of the listed objective functions to render this
claim obvious. Pet. 57. RPX argues that both Côté and
Bamji teach the claimed “objective function for
minimizing the layout area” because they both teach
compaction, and RPX further emphasizes Bamji’s
disclosure of receiving “coefficients for” an objective
function. Id. (citing Ex. 1004, 2:62–64, 5:50–51; Ex. 1005,
5:51–53, 9:39–50, 15:53–57, Table 1; Ex. 1002 ¶ 250).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté and Bamji account for the limitation of dependent
claim 11. See generally PO Resp. 62–64. We have
reviewed RPX’s explanations and supporting evidence
as to how the combined teachings of Côté and Bamji
account for this limitation, and we agree with and adopt
RPX’s analysis. See Pet. 57. Accordingly, RPX has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claim 11 would have
been obvious over the combined teachings of Côté and
Bamji.

D. Obviousness Over the Combined Teachings of Côté,
Bamji, and Kroyan
RPX contends that claims 4 and 6–9 of the ’012
patent are unpatentable under § 103(a) over the
combined teachings of Côté, Bamji, and Kroyan. Pet. 60–
68. In support of its contentions, RPX explains how this
proffered combination teaches or suggests the subject
matter of each challenged claim, and provides reasoning
as to why one of ordinary skill in the art would have

App. 66
been prompted to modify the teachings of these
references. Id. RPX also relies on the Declaration of Dr.
Nagel to support its positions. Ex. 1002 ¶¶ 264–304. By
virtue of their dependency, IYM contends that claims 4
and 6–9 include all the limitations of independent claim 1
and, therefore, these claims are patentable over the
combined teachings of Côté, Bamji, and Kroyan for the
same reasons discussed above with respect to the
grounds based on obviousness over the teachings of Côté
alone and the combined teachings of Côté and Bamji. PO
Resp. 64–65.
We begin our analysis with a brief overview of
Kroyan, and then we address RPX’s contentions with
respect to the claims at issue in this asserted ground.

1. Kroyan Overview
Kroyan generally relates to a system and method
for designing ICs fabricated by a semiconductor
manufacturing process and, in particular, to designing
ICs to enhance manufacturability and improve yield. Ex.
1006, 1:22–28. Figure 3 of Kroyan, reproduced below,
illustrates a method for IC design in accordance with
one embodiment. Id. at 4:43–45.

App. 67

Figure 3 of Kroyan, reproduced above, illustrates that,
at step 203, analysis engine receives input layout 201 and
design rules 202. Id. at 5:63–66. The analysis engine
evaluates the layout and design rules by determining
distinct pattern types that “have different criticality
leading to different manufacturability margin
requirements.” Id. at 6:4–7. In step 204, certain pattern
instances 206 are extracted. Id. at 6:17–18. Similarly, at
step 205, localized design rules are produced that
correspond to each extracted pattern instance. Id. at
6:18–20. At step 208, each pattern instance and localized
design rule is selected for an evaluation of

App. 68
manufacturability indices at step 209. Id. at 6:20–23. At
step 210, the results of calculating the manufacturability
indices are compared against past tolerances 211. Id. at
6:30–31. In step 212, if the results are within the
tolerances, the selected design rules are suitable for the
given pattern instances. Id. at 6:31–34. The process then
proceeds to step 214, where the layout is processed
according to these selected design rules. Id. at 6:34–35.
At step 213, if more refinement is needed, the process
returns to step 203 for further analysis. Id. at 6:35–39.
Figure 9 of Kroyan, reproduced below, illustrates
a flow diagram of an intelligent analysis and
optimization resolution enhancement technique in
accordance with another embodiment. Ex. 1006, 4:62–64.

Figure 9 of Kroyan, reproduced above, illustrates that,
at step 4001, the input design layout first is scanned and,

App. 69
at step 4002, the output layout patterns are compared
against data stored in database 4008. Id. at 9:1–5. At
step 4003, if a match is found, an optimization result is
retrieved at step 4004. Id. at 9:6–7. At step 4005, if a
match is not found, then a decision is made whether to
store the results in the database at step 4006. Id. at 9:7–
11. If the results are stored, database 4008 is updated at
step 4007. Id. at 9:11–12.

2. Claim 4
Claim 4 depends from independent claim 1, and
recites “wherein said description of manufacturing
process comprises design rules, simulation models,
equipment settings, material selections, and look-up
data tables.” Ex. 1001, 8:40–43.
In its Petition, RPX contends that the combined
teachings of Côté, Bamji, and Kroyan account for this
limitation because Côté discloses design rules,
simulation models, equipment settings, and material
selections, Bamji provides additional disclosures of
design rules and simulation models, and Kroyan
discloses the same features along with material
selections. Pet. 64 (citing Ex. 1004, 5:12–14, 5:17–29; Ex.
1005, 6:11–15, 8:25–26; Ex. 1006, 5:62–66, 9:34–36, 9:41–
46; Ex. 1002 ¶¶ 271, 272). Based on the disclosures in all
three references, RPX argues that a person of ordinary
skill in the art would have understood that physical
models include material selections, such as the type of
photoresist or etchant. Id. (citing Ex. 1002 ¶ 273). RPX
further argues that Kroyan discloses receiving look-up
data tables because it uses a knowledge database to
evaluate a layout and “comput[e] local process
modifications.” Id. at 64–65 (citing Ex. 1006, 8:57–9:17,
10:46–58, 11:55–12:3; Ex. 1002 ¶¶ 274–279).

App. 70
Turning to the rationale to combine the teachings
of Côté, Bamji, and Kroyan, RPX contends that it would
have been obvious to a person of ordinary skill in the art
to combine the teachings of Côté and Bamji with those of
Kroyan because Kroyan adds an efficiency to the
optimization process by disclosing a database that stores
both pattern instances for weak spots in a layout and
previously-determined optimization techniques for
addressing those weak spots. Pet. 62 (citing Ex. 1006,
9:1–14). According to RPX, if a given layout does not
match a pattern instance, Kroyan discloses determining
another optimization technique and storing the
information regarding the layout change. Id. (citing Ex.
1006, 9:1–14, 11:55–12:3). RPX asserts that a person of
ordinary skill in the art would have appreciated that
Kroyan’s knowledge database that stores layout
patterns would improve the efficiency of the
optimization technique taught by the combination of
Côté and Bamji because the knowledge database would
provide the opportunity to re-use previously determined
optimization techniques for future layouts. Id. (citing Ex.
1002 ¶ 266). RPX also contends that a person of ordinary
skill in the art would have recognized that Kroyan’s
approach for identifying weak spots in a design layout
would be more efficient than evaluating a layout, as a
whole, because Kroyan discloses evaluating the layout
for weak spots at “discrete evaluation points.” Id.
(quoting Ex. 1006, 9:60–10:8) (citing Ex. 1002 ¶ 267).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Kroyan account for the limitation of
dependent claim 4. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,

App. 71
Bamji, and Kroyan account for this limitation, as well as
RPX’s reasoning as to why one of ordinary skill in the
art would have been prompted to modify their respective
teachings, and we agree with and adopt RPX’s analysis.
See Pet. 61–62, 64–65. Accordingly, RPX has
demonstrated by a preponderance of the evidence that
the subject matter of dependent claim 4 would have been
obvious over the combined teachings of Côté, Bamji, and
Kroyan.

3. Claim 6
Claim 6 depends from independent claim 1, and
recites “wherein calculating local process modification
comprises detecting processing hotspots, evaluating
process response variables in the neighborhood of said
processing hotspots, and calculating local process
modification values using a predetermined function of
said process response variables.” Ex. 1001, 8:48–53.
In its Petition, RPX contends that Kroyan
teaches the claimed “detecting processing hotspots”
because it discloses identifying weak spots in a design
layout, such as those associated with placement error.
Pet. 66 (citing Ex. 1006, 4:4–22, 7:26–40, 10:26–35; Ex.
1002 ¶¶ 281–283). RPX also contends that Kroyan
teaches the claimed “evaluating process response
variables in the neighborhood of said processing
hotspots, and calculating local process modification
values using a predetermined function of said process
response variables” because Kroyan’s weak spots are
analyzed to determine “associated non-compliance
properties,” after which Kroyan “calculates functional
relationships between non-compliant manufacturability
parameters and layout parameters.” Id. (quoting Ex.
1006, 10:26–35, 11:30–35) (citing Ex. 1002 ¶ 284).
According to RPX, Kroyan discloses that these

App. 72
functional relationships are used to determine “possible
combinations of layout modification instructions that
have
an
influence
on
the
non-compliant
manufacturability parameter.” Id. (quoting Ex. 1006,
11:44–54) (citing Ex. 1002 ¶ 285).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Kroyan account for the limitation of
dependent claim 6. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,
Bamji, and Kroyan account for this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 65–66.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 6 would have been obvious over the
combined teachings of Côté, Bamji, and Kroyan.

4. Claim 7
Claim 7 depends from independent claim 1, and
recites “wherein local process modifications are
calculated using simulation models at plurality of control
points in the interaction region of a plurality of layout
objects that are interrelated through constraints.” Ex.
1001, 8:54–57.
In its Petition, RPX contends that Kroyan
teaches this limitation because it discloses identifying
weak spots in a design layout by evaluating
manufacturability parameters at “discrete evaluation
points.” Pet. 67 (quoting Ex. 1006, 9:54–10:8) (citing Ex.
1002 ¶¶ 288, 289). RPX argues that Kroyan’s “discrete
evaluation points” relate to layout objects that are
subject to constraints imposed by design rules because
they are used to analyze a layout at a desired level of
granularity. Id. (citing Ex. 1002 ¶¶ 290, 291). According

App. 73
to RPX, because the combination of Côté, Bamji, and
Kroyan would incorporate Kroyan’s approach for
identifying weak spots in a design layout into Côté’s
approach for identifying problem areas in a design
layout, the proffered combination teaches the limitation
of dependent claim 7. Id. (citing Ex. 1002 ¶ 292).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Kroyan account for the limitation of
dependent claim 7. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,
Bamji, and Kroyan account for this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 66–67.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 7 would have been obvious over the
combined teachings of Côté, Bamji, and Kroyan.

5. Claim 8
Claim 8 depends from independent claim 1, and
recites “wherein local process modifications are
calculated from simulated local printability comprising
edge placement error, light intensity during lithography
exposure, and their derivatives from a plurality of layout
objects that are interrelated through constraints.” Ex.
1001, 8:58–62.
In its Petition, RPX contends that Kroyan
teaches this limitation because it discloses printability
characteristics, placement error, and light intensity
during lithography exposure. Pet. 67 (citing Ex. 1006,
2:5–10, 6:42–47, 7:26–40, 9:41–46, 9:54–10:8, 11:44–54;
Ex. 1002 ¶ 294). RPX asserts that a person of ordinary
skill in the art would have understood that Kroyan’s
parameters, such as depth of focus and exposure

App. 74
latitude, amount to characteristic parameters of the
lithography process. Id. at 67–68. RPX also contends
that Kroyan teaches the claimed “derivatives.” Id. at 68
(citing Ex. 1002 ¶ 297).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Kroyan account for the limitation of
dependent claim 8. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,
Bamji, and Kroyan account for this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 67–68.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 8 would have been obvious over the
combined teachings of Côté, Bamji, and Kroyan.

6. Claim 9
Claim 9 depends from independent claim 1, and
recites “wherein the step of computing local process
modification comprises searching a look-up data table.”
Ex. 1001, 8:63–65.
In its Petition, RPX contends that Kroyan
teaches this limitation because, when addressing a
design layout with problematic weak spots, Kroyan
discloses using its knowledge database to retrieve an
“associated remedial solution” and then providing that
solution to an optimizer (e.g., Côté’s layout optimizer
520). Pet. 68 (quoting Ex. 1006, 11:55–12:3) (citing Ex.
1006, 9:1–17, 10:46–58). According to RPX, Kroyan’s
“associated remedial solutions” amount to the “local
process modifications,” as recited in independent claim
1. Id. (citing Ex. 1002 ¶¶ 300–303). RPX argues that the
combination of Côté, Bamji, and Kroyan teaches
searching a “look-up table” because Kroyan’s knowledge

App. 75
database may be used to compute the claimed “local
process modifications.” Id. (Ex. 1002 ¶ 304).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Kroyan account for the limitation of
dependent claim 9. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,
Bamji, and Kroyan account for this limitation, and we
agree with and adopt RPX’s analysis. See Pet. 68.
Accordingly,
RPX
has
demonstrated
by
a
preponderance of the evidence that the subject matter of
dependent claim 9 would have been obvious over the
combined teachings of Côté, Bamji, and Kroyan.

E. Obviousness Over the Combined Teachings of Côté,
Bamji, and Cobb
RPX contends that claim 12 of the ’012 patent is
unpatentable under § 103(a) over the combined
teachings of Côté, Bamji, and Cobb. Pet. 69–72. In
support of its contentions, RPX explains how this
proffered combination teaches or suggests the subject
matter of the challenged claim, and provides reasoning
as to why one of ordinary skill in the art would have
been prompted to modify the teachings of these
references. Id. RPX also relies on the Declaration of Dr.
Nagel to support its positions. Ex. 1002 ¶¶ 305–311. By
virtue of its dependency, IYM contends that claim 12
includes all the limitations of independent claim 1 and,
therefore, this claim is patentable over the combined
teachings of Côté, Bamji and Cobb for the same reasons
discussed above with respect to the grounds based on
obviousness over the teachings of Côté alone and the
combined teachings of Côté and Bamji. PO Resp. 64–65.

App. 76
We begin our analysis with a brief overview of
Cobb, and then we address RPX’s contentions with
respect to the claims at issue in this asserted ground.

1. Cobb Overview
Cobb generally relates to IC design and, in
particular, to designing deep submicron ICs. Ex. 1007,
1:8–10. As background, Cobb discloses that optical
proximity correction (“OPC”) refers to modifying IC
designs “to compensate for manufacturing distortions
due to the relative proximity of edges in the design.” Id.
at 2:12–16. OPC also accounts for manufacturing
distortions “introduced during chemical processing, such
as resist etching and oxide etchings.” Id. at 2:16–20.
Cobb discloses two types of OPC: (1) model-based OPC;
and (2) rule-based OPC. Id. at 2:28–29, 2:43–44. Modelbased OPC predicts manufacturing distortions in a
design layout and compensates for them at the design
stage by operating on edge fragments. Id. at 2:29–32.
Cobb, however, discloses that “[m]odel-based OPC can
be very computationally intensive.” Id. at 2:34. Rulebased OPC introduces a pre-determined alteration when
a particular feature is encountered in a design layout. Id.
at 2:44–46. Cobb, however, discloses that “[r]ule-based
OPC . . . relies on the presumption that altering a
particular feature with a predetermined change will
improve the quality of the manufacturing design. [This]
presumption does not always hold true.” Id. at 2:50–53.
According to Cobb, it would be desirable if both modelbased OPC and rule-based OPC “could be selectively
employed at a feature level in an efficient manner.” Id.
at 3:16–18.
Cobb seeks to achieve this objective by providing
a method and apparatus for designing IC layouts
composed of edge fragments by identifying and tagging

App. 77
certain properties of each edge fragment. Ex. 1007,
4:30–34. After an edge fragment has been identified and
tagged, it can be controlled in various ways. Id. at 4:35–
38. For instance, “a user can apply different types of . . .
[OPC] to the tagged edge fragments, or view which
edges in an IC layout have received certain tags.” Id. at
4:38–42. Cobb discloses that its method and apparatus
for designing IC layouts “may achieve performance
advantages, for instance, by selectively applying OPC to
only tagged edge fragments, resulting in a potentially
significant time savings.” Id. at 4:48–51.

2. Claim 12
Claim 12 depends from independent claim 1, and
recites “tagging locations on a layer where enforcing
said new local constraint distances are unsuccessful, and
performing optimal process correction only on said
tagged locations, whereby the processing time and data
size of the mask layout is reduced.” Ex. 1001, 9:11–15.
In its Petition, RPX contends that Cobb teaches
this limitation because it discloses an approach for
“selectively applying OPC to only tagged edge
fragments, resulting in a potentially significant time
savings.” Pet. 71 (quoting Ex. 1007, 4:48–51). RPX
argues that Cobb discloses identifying and tagging edge
fragments of IC layouts that have specific properties
indicative of “edge placement distortion due to the
proximity of neighboring features.” Id. (quoting Ex.
1007, 3:25–31) (citing Ex. 1007, 4:30–41). According to
RPX, the combination of Côté, Bamji, and Cobb would
include a step of performing OPC, as taught by Côté,
and that OPC would be capable of using Cobb’s selective
tagging technique. Id. at 71–72. Stated differently, RPX
asserts that, when Cobb’s selective tagging technique is
applied to the combination of Côté, Bamji, and Cobb in a

App. 78
manner that follows the optimization performed by Côté
and Bamji, the edge fragments tagged would be those
for which the enforcement of new local constraint
distances were unsuccessful. Id. at 72 (citing Ex. 1002 ¶¶
309–311).
Turning to the rationale to combine the teachings
of Côté, Bamji, and Cobb, RPX contends that a person
of ordinary skill in the art would have been motivated to
combine the teachings of Côté and Bamji with those of
Cobb because Côté discloses analyzing and adjusting a
design layout using OPC to yield a new design layout.
Pet. 70 (citing Ex. 1004, 3:16–22, 6:25– 28, 7:43–48). RPX
argues that Cobb discloses achieving substantial
performance advantages by identifying specific edge
fragments at risk of manufacturing distortion and
“selectively applying OPC to only tagged edge
fragments.” Id. (quoting Ex. 1007, 4:43–51). According to
RPX, a person of ordinary skill in the art would have
appreciated the advantages of implementing Côté’s OPC
using Cobb’s selectively tagging technique in order to
gain the performance advantages or efficiencies taught
by Cobb. Id. (citing Ex. 1004, 6:18–27; Ex. 1007, 4:51–65;
Ex. 1002 ¶¶ 306, 307).
In its Patent Owner Response, IYM does not
address separately whether the combined teachings of
Côté, Bamji, and Cobb account for the limitation of
dependent claim 12. See generally PO Resp. 64–65. We
have reviewed RPX’s explanations and supporting
evidence as to how the combined teachings of Côté,
Bamji, and Cobb account for this limitation, as well as
RPX’s reasoning as to why one of ordinary skill in the
art would have been prompted to modify their respective
teachings, and we agree with and adopt RPX’s analysis.
See Pet. 70–72. Accordingly, RPX has demonstrated by

App. 79
a preponderance of the evidence that the subject matter
of dependent claim 12 would have been obvious over the
combined teachings of Côté, Bamji, and Cobb.

F. Constitutional Challenge
IYM contends that the Supreme Court’s decision
in Oil States Energy Services LLC v. Greene’s Energy
Group, LLC, 138 S. Ct. 1365 (2018) was limited to
addressing Oil States’s constitutional challenge that
subjecting its patent to an inter partes review
proceeding violates its right to a jury trial under the
Seventh Amendment of the U.S. Constitution. PO Resp.
65. IYM noted that that Supreme Court emphasized that
its Oil States decision “should not be misconstrued as
suggesting that patents are not property for purposes of
the Due Process Clause or the Takings Clause.” Id.
(quoting Oil States, 138 S. Ct. at 1379).
IYM contends that our exercise of jurisdiction to
adjudicate the patentability of the ’012 patent would
violate its rights under the Takings Clause of the Fifth
Amendment of the U.S. Constitution because this patent
issued in November 2008, which was several years prior
to the enactment of the America Invents Act (“AIA”).
PO Resp. 65. According to IYM, the retroactive nature
of this inter partes review proceeding underscores the
unconstitutionality of the entire process. Id. IYM also
argues that subjecting the ’012 patent to an inter partes
review proceeding “places a severe, disproportionate,
and extremely retroactive burden on” IYM. Id. at 66
(quoting E. Enters. v. Apfel, 524 U.S. 498, 538 (1998)).
In its Reply, RPX contends that IYM does not
offer any substantive analysis to support its argument
that subjecting the ’012 patent to an inter partes review
proceeding violates IYM’s rights under the Takings
Clause. Pet. Reply 26. RPX further contends that IYM

App. 80
does not cite to any authority that would authorize the
Board to determine that the “retroactive” application of
the AIA is unconstitutional. Id.
We decline to consider IYM’s constitutional
challenge because “administrative agencies [generally]
do not have jurisdiction to decide the constitutionality of
congressional enactments.” Riggin v. Office of Senate
Fair Emp’t Practices, 61 F.3d 1563, 1569 (Fed. Cir.
1995); see also Harjo v. Pro-Football, Inc., 50 USPQ2d
1705, 1710 (TTAB 1999) (“[T]he Board has no authority .
. . to declare provisions of the Trademark Act
unconstitutional.”), rev’d on other grounds, 284 F. Supp.
2d 96 (D.D.C. 2003). But see Am. Express Co. v.
Lunenfeld, Case CBM2014-00050, slip op. at 9–10
(PTAB May 22, 2015) (Paper 51) (“[F]or the reasons
articulated in Patlex [Corp. v. Mossinghoff, 758 F.2d 594
(Fed. Cir. 1985)], we conclude that covered business
method patent reviews, like reexamination proceedings,
comply with the Seventh Amendment.”).
III. CONCLUSIONS
RPX has demonstrated by a preponderance of
the evidence that (1) claims 1–3, 5, 13, and 14 are
unpatentable under § 103(a) over the teachings of Côté;
(2) claims 1–3, 5, 10, 11, and 13 are unpatentable under §
103(a) over the combined teachings of Côté and Bamji;
and (3) claims 3, 4, and 6–9 are unpatentable under §
103(a) over the combined teachings of Côté, Bamji, and
Kroyan; and (4) claim 12 is unpatentable under § 103(a)
over the combined teachings of Côté, Bamji, and Cobb.
IV. ORDER
In consideration of the foregoing, it is
ORDERED that claims 1–14 of the ’012 patent
are held to be unpatentable; and

App. 81
FURTHER ORDERED that, because this is a
Final Written Decision, parties to this proceeding
seeking judicial review of our decision must comply with
the notice and service requirements of 37 C.F.R. § 90.2.
For PETITIONER:
Richard Giunta
Marc Johannes
Randy Pritzker
WOLF, GREENFIELD & SACKS, P.C.
RGiunta-PTAB@wolfgreenfield.com
MJohannes-PTAB@wolfgreenfield.com
RPritzker-PTAB@wolfgreenfield.com
For PATENT OWNER:
Robert Whitman
Andrea Pacelli
Timothy Rousseau
Charles Wizenfeld
MISHCON DE REYA NEW YORK LLP
robert.whitman@mishcon.com
andrea.pacelli@mishcon.com
tim.rousseau@mishcon.com
charles.wizenfeld@mishcon.com

App. 82
APPENDIX D
Trials@uspto.gov

Paper No. 35

571-272-7822

Entered: March 6, 2019

UNITED STATES PATENT AND TRADEMARK
OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
____________
RPX CORPORATION and ADVANCED MICRO
DEVICES, INC.,
Petitioner,
v.
IYM TECHNOLOGIES LLC,
Patent Owner.
____________
Case IPR2017-01888
Patent 7,448,012 B1
____________
Before MICHAEL R. ZECHER, MINN CHUNG, and
CARL L. SILVERMAN, Administrative Patent Judges.
SILVERMAN, Administrative Patent Judge.
FINAL WRITTEN DECISION

35 U.S.C. § 318(a) and 37 C.F.R. § 42.73

App. 83
I. INTRODUCTION
In response to a Petition (Paper 1, “Pet.”) filed by
RPX Corporation and Advanced Micro Devices, Inc.,
(collectively “RPX”), we instituted an inter partes
review of claims 1–11, 13, and 14 of U.S. Patent No.
7,448,012 B1 (Ex. 1001, “the ’012 patent”). Paper 9
(“Dec. on Inst.”).
During the trial, IYM Technologies LLC (“Patent
Owner”) filed a Response (Paper 17, “PO Resp.”), to
which RPX filed a Reply (Paper 23, “Pet. Reply”). With
our authorization, IYM filed a Sur-Reply (Paper 27, “PO
Sur-Reply”). A consolidated oral hearing with related
Case IPR2017-01886 was held on December 11, 2018,
and a copy of the transcript was entered into the record.
Paper 34 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Decision is a Final Written Decision under 35 U.S.C. §
318(a) as to the patentability of the claims on which we
instituted trial. Based on the record before us, RPX has
shown, by a preponderance of the evidence, that claims
1–9, 11, 13, and 14 of the ’012 patent are unpatentable.
RPX, however, has not shown, by a preponderance of
the evidence, that claim 10 of the ’012 patent is
unpatentable.

A. Related Matters
The ’012 patent is involved in a district court case

titled IYM Technologies LLC v. Advanced Micro
Devices, Inc., 1-16-cv-00649-GMS (D. Del) (the
“Delaware Litigation”). Pet. vii; Paper 4, 1. In addition
to this Petition, RPX filed a separate petition in Case
IPR2017-01886 requesting an inter partes review of
claims 1–14 of the ’012 patent. Id. A Final Written

App. 84
Decision for Case IPR2017-01886 is being entered
concurrently.

B. The ’012 Patent
The ’012 patent, titled “Methods and System for
Improving Integrated Circuit Layout,” issued
November 4, 2008, from U.S. Patent Application No.
10/907,814, filed on April 15, 2005. Ex. 1001, [54], [45],
[21], [22]. The ’012 patent claims priority to the following
provisional applications: (1) U.S. Provisional Application
No. 60/603,758, filed on August 23, 2004; and (2) U.S.
Provisional Application No. 60/564,082, filed on April 21,
2004. Id. at [60].
The ’012 patent generally relates to integrated
circuit (“IC”) manufacturing and, in particular, to a
method and system for generating and optimizing the
layout artwork of an IC. Ex. 1001, 1:11–13. As
background, the ’012 patent discloses that, in modern
processing technology, the manufacturing yield of ICs
(i.e., a measure of functioning devices in semiconductor
testing) depends heavily on their layout construction. Id.
at 1:17–19. For a given manufacturing process, a set of
design rules are applied during chip layout in order to
avoid geometry patterns that cause chip failures. Id. at
1:19–21. These design rules guarantee the yield by
limiting layout geometry parameters, such as minimum
spacing, minimal line width, etc. Id. at 1:21–23.
Conventional layout construction systems cover the
worst case scenario for all chips by applying these
design rules over a wide chip area and to entire classes
of circuits. Id. at 1:24–27.
The ’012 patent discloses that, in modern
processing technology, many layout features may
interact during chip processing. Ex. 1001, 1:29–31. These
feature-dependent interactions are difficult to capture

App. 85
with precise design rules and, as a result, sufficiently
relaxed global design rules are implemented in order to
guarantee the yield. Id. at 1:33–36. According to the ’012
patent, there are two drawbacks to this approach: (1) it
clearly wastes chip area; and (2) determining the worst
case scenario in all chips is a non-trivial task that
consumes engineering resources. Id. at 1:37–40. The ’012
patent further discloses that some emerging processing
technologies prefer one spatial direction over another.
Id. at 1:41–42. Existing layout generation systems,
however, use identical minimal spacing and minimal
width rules for both directions that lead to wasted chip
area and underutilization of processing capabilities
because the design rules must cover the worst case
scenario in both directions. Id. at 1:42–46.
The ’012 patent purportedly addresses these and
other problems by providing a method and system for
forming layout constraints to account for local and
orientation processing dependencies. Ex. 1001, 1:51–54.
By combining a local process modification value, which
represents an additional safeguard beyond an original
design rule constraint, with the original design rule
constraint itself, it effectively creates a new constraint
for every unique local situation. Id. at 1:55–64, 4:3–5.
This mechanism adds extra safeguards to design rule
formulation and improves chip yield by eliminating
processing hotspots. Id. at 1:64–67, 4:5–6.

C. Illustrative Claim
Of the challenged claims, claim 1 is independent
and it is directed to a method for generating design
layout artwork implemented in a computer. Claims 2–11,
13, and 14 directly depend from independent claim 1.
Independent claim 1 is illustrative of the challenged
claims and is reproduced below:

App. 86
1. A method for generating design layout
artwork implemented in a computer, comprising:
receiving a design layout comprising a
plurality of layout objects residing on a plurality
of layers;
receiving descriptions of manufacturing
process;
constructing a system of initial constraints
among said layout objects;
computing local process modifications to
change said initial constraints using said
descriptions of manufacturing process;
constructing new local constraint distances
by combining said local process modifications
with constraint distances in said system of initial
constraints;

enforcing
distances; and

said

new

local

constraint

updating the coordinate variables of layout
objects according to the solutions obtained from
enforcing said new local constraint distances;
whereby a new layout is produced that has
increased yield and performance.
Ex. 1001, 8:16–34 (emphasis added).

D. Instituted Grounds of Unpatentability
We instituted trial on the following grounds (Dec.
on Inst. 31).
Reference(s)

Basis

Challenged Claim(s)

Allan (Ex. 1015)

§ 103(a)

1–5, 10, 11, 13, and 14

App. 87
Allan (Ex. 1015) § 103(a)
and Kroyan (Ex.
1006)

4 and 6–9

II. ANALYSIS

A. Claim Construction
In an inter partes review proceeding, claim terms

of an unexpired patent are given their broadest
reasonable interpretation in light of the specification of
the patent in which they appear. 37 C.F.R. § 42.100(b)
(2017).4 Under the broadest reasonable interpretation
standard, claim terms are generally given their ordinary
and customary meaning, as would be understood by one
of ordinary skill in the art, in the context of the entire
disclosure. In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007).
In its Petition, RPX proposes constructions for
the following claim terms: (1) “width,” “space,”
“overlap,” enclosure,” and “extension” (claim 13); and (2)
“description(s) of manufacturing process” (all challenged
claims). Pet. 16–18. There is no dispute between the
parties regarding the proper construction of these
terms.
RPX does not propose a construction for the
claim term “constraints,” but nonetheless advocates for

4

A different rule applies for petitions filed on or after
November 13, 2018. Changes to the Claim Construction
Standard for Interpreting Claims in Trial Proceedings
Before the Patent Trial and Appeal Board, 83 Fed. Reg.
51,340 (Oct. 11, 2018) (amending 37 C.F.R. § 42.100(b)).

App. 88
a construction of this claim term that is the same as the
construction applied by IYM in the Delaware Litigation.
Pet. 33–35. According to RPX, in the Delaware
Litigation, IYM argued for a broad construction of
“constraints” to mean “limits on geometry parameters of
the layout objects in the design layout.” Id. at 33 (citing
Ex. 1017, 4). RPX argues that, because the claim
construction standard at the Board is broader than the
standard applied in district court, IYM should not be
allowed to seek a narrower construction of this term in
attempting to distinguish Allan. Id. at 33–34 (citing
Rembrandt Wireless Techs., LP v. Samsung Elecs. Co.,
Ltd., 853 F.3d 1370, 1377 (Fed. Cir. 2017) (“[T]he Board
in IPR [inter partes review] proceedings operates under
a broader claim construction standard than the federal
courts.”)). In its Response, IYM does not dispute RPX’s
proposed construction for the term “constraints.” PO
Resp. 14–17. After reviewing the record developed
during trial, we agree with the parties that an
appropriate construction of the term “constraints” is
“limits on geometry parameters of the layout objects in
the design layout.”
The parties, however, dispute the construction of
the claim 1 phrase “enforcing said new local constraint
distances.” PO Resp. 28–36; Pet. Reply 4–8; PO SurReply 1–3. Although RPX does not propose a
construction of this phrase in its Petition or Reply, it
contends IYM’s proposed construction is incorrect. See
Pet. 15–18; Pet. Reply 4–8.
IYM contends the phrase “enforcing said new
local constraint distances” means “finding solutions (i.e.,
adjustments to the layout) that remove violations of the
new local constraint distances,” and refers to the claims,
Specification, Dr. Nagel’s and Dr. Bernstein’s cross-

App. 89
examination testimony, and their Declarations as
supporting this construction. PO Resp. 17–20 (citing Ex.
1001, 8:26–27, 8:29–32, 4:17–21, 3:65–66, 4:17–54; Ex.
2012 ¶¶ 51–54). IYM also refers to the Delaware
Litigation claim interpretation urged by IYM, a
dictionary definition, and the “solution” in the next step
of claim 1 as supporting this construction. Id. at 20–21
(citing Ex. 1017, 13–14; Ex. 2016, 17, 19; Ex. 2017, 472;
Ex 2012 ¶ 56).
According to IYM, the Specification describes
two embodiments, one of which applies a formula, the
other applies heuristic techniques, and each includes
removing violations. Id. at 17–19 (citing Ex. 1001, 4:25–
27, 4:47–49, 8:29–32; Ex. 2012 ¶ 54). IYM then refers to a
dictionary definition of “enforcing” as to “compel
compliance with (a law, rule, or obligation),” and
contends “no reasonable interpretation of the claimed
‘enforcing said new local constraint distances’ limitations
would permit violation of the new local constraint
distances to remain without even attempting to fix
them.” Id. at 20 (citing Ex. 2017, 472; Ex. 2012 ¶ 56).
IYM contends this proposed construction is the
same construction asserted by IYM in the Delaware
Litigation. Id. at 20–21 (citing Ex. 1017, 13–14). IYM
contends Dr. Nagel’s cross-examination testimony
contradicts RPX’s proposed construction and expressly
agrees that the claimed enforcing step “is a step of
removing violations of the new local constraint
distances,” id. at 19–20 (citing Ex. 2013, 85:12–86:7; Ex.
2012 ¶ 55):
Q. … Now, when you enforce the new local
constraint distances, isn’t it fair to say that the
result of that enforcing is a set of new coordinates
for the layout objects?

App. 90
A. Yes.
Q. Okay. And that set of new coordinates is such
that there are no violations of the new local
constraint distances d_new?
MR. JOHANNES: Objection. Form.
THE WITNESS: That’s correct.
BY MR. PACELLI:
Q. So the enforcing step in Claim 1 of the ’012
patent is a step of removing violations of the new
local constraint distances; correct?
MR. JOHANNES: Objection. Form.
THE WITNESS: Yes. That’s correct.
BY MR. PACELLI:
Q. So after the enforcing step, there should be no
violations of the new local constraint distances?
A. That’s correct.
Ex. 2013, 85:12–86:7.
IYM also refers to Dr. Bernstein’s Declaration, in
which he stated “I agree with Dr. Nagel’s assessment
that the claimed enforcing step ‘is a step of removing
violations of the new local constraint distances.’” Ex 2012
¶ 55.
RPX counters that IYM’s proposed construction
is incorrect. Pet. Reply 4–9. According to RPX, the claim
does not recite removing violations and, although the
Specification describes two embodiments in which
enforcing includes removing violations, these are simply
preferred embodiments, and the Specification expressly
states the invention is not limited to the disclosed
embodiments. Id. at 5–8 (citing Ex. 1001, 2:1–4, 2:64–67,
4:17–21, 4:55–67). RPX argues that, even in the

App. 91
preferred embodiment that utilizes a formula, local
constraint distances can be enforced even if the original
layout does not violate them. Id. at 6–7 (citing Ex. 1001,
4:22–44, Fig. 2). According to RPX, “[g]iven that the
resulting solution seeks to ensure compliance with all
new local constraint distances when making
modifications to the original layout, the optimization
process seeks to ‘enforce’ both the ‘some of the local
constraint distances’ that are ‘likely’ violated and those
other local constraint distances that are not violated by
the original layout.” Id. at 7 (citing Ex. 1001, 4:19–42).
RPX refers to the Delaware Litigation in which
the U.S. District Court for the District of Delaware
(“Court”) rejected IYM’s current claim construction and
commented that it was “puzzling.” Id. at 4 (citing Ex.
2015, 4 n.4). The Court determined the construction of
the phrase is “solving a set of equations after
incorporating the new local constraint distances.” Id.
Neither party proposes this construction in this
proceeding. When asked about this construction at the
oral hearing, RPX’s counsel stated the construction
would be acceptable, except for inclusion of the term
“equation” because the enforcement of inequalities may
create uncertainty with respect to “equation.” Tr. 38:2–
23. According to RPX’s counsel, “[i]f you just substitute
constraints for equations in the District Court
construction, we’re fine with that construction.” Id. at
38:21–23.
RPX characterizes the cross-examination
testimony of Dr. Nagel as not supporting IYM’s
argument that the disputed limitation requires removing
violations. Pet. Reply at 9. According to RPX, “Dr.
Nagel acknowledged . . . there ‘should be no violations of
the new local constraint distances’ that survive the

App. 92
enforcement step. But, importantly, Dr. Nagel was not
asked if this was ‘required’ for enforcement of the local
constraints, nor whether the [broadest reasonable
interpretation] of the enforcing step was limited to
removing violations.” Id.
During the oral hearing, RPX’s counsel directed
us to the cross-examination testimony of Dr. Bernstein.
Tr. 34:4–35:3, 107:4–21. The relevant portion of Dr.
Bernstein’s cross-examination testimony is reproduced
below.
Q. Okay. So just so I’m clear, in the context of the
’012 patent, every time step F is performed,
violations are removed?
...
A. If there are violations, obviously, you have to
qualify that, because there may not be a violation
depending on the design. We don’t know. You
could enforce without having a violation.
Ex. 1027, 185:6–13.
We begin our analysis by examining the intrinsic
evidence, which supports a claim construction that
removal of violations is not required. Upon reviewing the
Specification of the ’012 patent, we do not find an explicit
definition for the phrase “enforcing said new local
constraint distances.” We, therefore, refer to its
ordinary and customary meaning, as would be
understood by one of ordinary skill in the art, in the
context of the entire disclosure. Translogic, 504 F.3d at
1257.
The Specification refers to local constraint
enforcement together with removing violations on two
occasions. First, when discussing the local constraint
enforcement illustrated in Figure 2, the Specification

App. 93
discloses constructing an objective function at block 100,
which, “[i]n a preferred embodiment,” is used “together
with the linear constraint system [to] remove[] the new
violations introduced by local constraint with minimal
perturbation.” Ex. 1001, 4:22–27. When discussing
“another preferred embodiment,” the Specification
discloses that “the violations to local constraints are
removed one at a time using heuristic procedures.” Id. at
4:47–49. Based on these disclosures, we agree with RPX
the Specification describes removing violations in the
context of preferred embodiments that are exemplary
rather than required.
The plain language of independent claim 1 also
supports treating the removal of violations as preferred
embodiments that are exemplary rather than required.
Independent claim 1 recites, in relevant part, “enforcing
said new local constraint distances” and “updating the
coordinate variables of layout objects according to the
solutions obtained from enforcing said new local
constraint distances.” Ex. 1001, 8:29–32. Notably absent
from this claim language is an explicit requirement that
enforcement includes removing violations. Instead, this
claim language clearly indicates that “solutions” are
“obtained from enforcing said new local constraint
distances.” Obtaining solutions in this context is
consistent with both the description of Figure 2 in the
Specification and the Court’s construction of “solving the
set of linear equations after incorporating the new local
constraint distances.” Ex. 1001, 4:18–54, Fig. 2; Ex. 2015,
4 n.4.
Turning to the extrinsic evidence, the testimony
of Drs. Nagel and Bernstein is inconclusive. On the one
hand, Dr. Nagel’s cross-examination testimony suggests
removal of violations is required. Ex. 2013, 85:12–86:7.

App. 94
On the other hand, Dr. Bernstein’s cross-examination
testimony suggests removal of violations is not required.
Ex. 1027, 185:6–13. On their face, the referenced crossexamination testimony of Drs. Nagel and Bernstein is
contrary to the position of their respective party. In
addition, we note RPX’s counsel’s statement at the oral
hearing that Dr. Nagel’s answer, when viewed in
context, does not identify that the broadest reasonable
interpretation of the “enforcing” limitation of claim 1
includes removing violations. Tr. 30:19–31:15. We also
note RPX’s counsel’s statement at the oral hearing that
Dr. Bernstein’s Declaration and cross-examination
testimony do not identify that the broadest reasonable
interpretation includes removing violations. Tr. 107:4–21
(citing Ex. 1027, 185:6–13, 186:15–22,).
The extrinsic evidence, in the form of the
dictionary definition proffered by IYM, also is
inconclusive. The CONCISE OXFORD ENGLISH
DICTIONARY (11th ed. 2004) defines “enforce” as to
“compel compliance with (a law, rule, or obligation).” Ex.
2017, 472. This definition, however, does not account for
the scenario where there may not be a violation in the IC
design. As Dr. Bernstein testified, “you can enforce
without having a violation.” Ex. 1027, 185:12–13. As one
example, a police officer enforcing a motor vehicle speed
limit is not necessarily required to remove violators (e.g.,
by issuing speeding tickets), particularly when no motor
vehicles are exceeding the speed limit. See Tr. 115:7–19.
In summary, upon weighing all the evidence
bearing on the construction of “enforcing said new local
constraint distances,” the extrinsic evidence is
inconclusive and does not overcome the intrinsic
evidence. We agree with RPX that the phrase “enforcing
said new local constraint distances” does not require

App. 95
removing violations because the Specification only
describes removing violations in the context of preferred
embodiments. Instead, we construe this phrase to mean
“solving a set of linear equations or constraints after
incorporating the new local constraint distances,” which
is consistent with the description of Figure 2 in the
Specification of the ’012 patent, the plain language of
independent claim 1, and the construction in the
Delaware Litigation. Ex. 1001, 4:18–54, 8:29–32, Fig. 12;
Ex. 2015, 4 n.4.

B. Obviousness Over the Teachings of Allan
RPX asserts that claims 1–5, 10, 11, 13, and 14 of
the ’012 patent are unpatentable under § 103(a) over the
teachings of Allan. Pet. 27–57. RPX explains how Allan
teaches or suggests the subject matter of each
challenged claim to one of ordinary skill in the art. Id.
RPX also relies upon the Declaration of Dr. Nagel to
support its positions. Ex. 1002 ¶¶ 101–133, 312–414. In
its Response, IYM presents a number of arguments,
most of which focus on whether Allan teaches or
suggests “enforcing said new local constraint distances,”
as recited in independent claim 1. PO Resp. 28–38. IYM
relies on the Declaration of Dr. Bernstein to support its
positions. Ex. 2012 ¶¶ 118–130.
We begin our analysis with the principles of law
that generally apply to a ground based on obviousness,
followed by an assessment of the level of skill in the art,
a brief overview of Allan, and the parties’ contentions
with respect to the challenged claims.

1. Principles of Law
A claim is unpatentable under § 103(a) if the
differences between the claimed subject matter and the
prior art are such that the subject matter, as a whole,

App. 96
would have been obvious at the time the invention was
made to a person having ordinary skill in the art to
which said subject matter pertains. KSR Int’l Co. v.
Teleflex Inc., 550 U.S. 398, 406 (2007). The question of
obviousness is resolved on the basis of underlying
factual determinations, including (1) the scope and
content of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level of
skill in the art; and (4) when in evidence, objective
indicia
of
non-obviousness
(i.e.,
secondary
considerations).5 Graham v. John Deere Co., 383 U.S. 1,
17–18 (1966).
Additionally, the obviousness inquiry typically
requires an analysis of “whether there was an apparent
reason to combine the known elements in the fashion
claimed by the patent at issue.” KSR, 550 U.S. at 418
(citing In re Kahn, 441 F.3d 977, 988 (Fed. Cir. 2006)
(requiring “articulated reasoning with some rational
underpinning to support the legal conclusion of
obviousness”)); see In re Warsaw Orthopedic, Inc., 832
F.3d 1327, 1333 (Fed. Cir. 2016) (citing DyStar

Textilfarben GmbH & Co. Deutschland KG v. C. H.
Patrick Co., 464 F.3d 1356, 1360 (Fed. Cir. 2006)).

To prevail on its challenges, Petitioner must
demonstrate by a preponderance of the evidence that
the claims are unpatentable. 35 U.S.C. § 316(e); 37
C.F.R. § 42.1(d). “In an [inter partes review], the
petitioner has the burden from the onset to show with
particularity why the patent it challenges is

5

The parties do not address secondary considerations,
which, accordingly, do not form part of our analysis.

App. 97
unpatentable.” Harmonic Inc. v. Avid Tech., Inc. 815
F.3d 1356, 1363 (Fed. Cir. 2016) (citing 35 U.S.C. §
312(a)(3) (requiring inter partes review petitions to
identify “with particularity . . . the evidence that
supports the grounds for the challenge to each claim”)).
This burden never shifts to Patent Owner. See Dynamic
Drinkware, LLC. v. Nat’l Graphics, Inc., 800 F.3d 1375,
1378 (Fed. Cir. 2015) (citing Tech. Licensing Corp. v.
Videotek, Inc., 545 F.3d 1316, 1326–27 (Fed. Cir. 2008))
(discussing the burden of proof in inter partes review).
Furthermore, Petitioner does not satisfy its burden of
proving obviousness by employing “mere conclusory
statements.” In re Magnum Oil Tools Int’l, Ltd., 829
F.3d 1364, 1380 (Fed. Cir. 2016).

2. Level of Skill in the Art
There is evidence in the record before us that
enables us to determine the knowledge level of a person
of ordinary skill in the art. Relying on the testimony of
its declarant, Dr. Nagel, RPX asserts that a person of
ordinary skill in the art as of April 2004, which is the
earliest priority date on the face of the ’012 patent,
would be an individual who possesses “a bachelor’s
degree in Electrical Engineering or the equivalent,
along with at least two years of experience in developing
and/or researching integrated circuit technology.” Pet.
15 (citing Ex. 1002 ¶¶ 30–32). IYM’s declarant, Dr.
Bernstein, generally agrees with the assessment of RPX
and Dr. Nagel, but further clarifies that “a person of
ordinary skill in the art would have had a sufficient
familiarity with [electronic design automation] tools to
be able to competently use such tools and understand
their operation.” PO Resp. 12–13 (citing Ex. 1002 ¶ 31;
Ex. 2012 ¶¶ 26–29).

App. 98
We do not discern a material difference between
the assessments advanced by the declarants, nor does
either party premise its arguments exclusively on its
assessment of the level of skill in the art. Moreover, each
party’s declarant appears to meet or exceed both
parties’ assessments (see Ex. 1002 ¶¶ 2–13; Ex. 1003;
Ex. 2012 ¶¶ 3–19, Curriculum Vitae), and either
assessment of the level of skill in the art is consistent
with the ’012 patent and the asserted prior art. We,
therefore, adopt Dr. Nagel’s assessment and apply it to
our obviousness evaluation below, but note that our
conclusions would remain the same under Dr.
Bernstein’s assessment.

3. Allan Overview
Allan “introduces the concept of local design
rules” for IC layout optimization at the local level to
increase yield. Ex. 1015, 1355. Allan explains that IC
layouts are “bound by a set of design rules” that
“determine the minimum size and spacing of all layers of
the circuit geometry in an attempt to maximize the yield,
performance, and reliability.” Id. Allan explains “the
design rules are applied over the whole of the layout
area” and are referred to as “global design rules
(GDRs).” Id. Allan recognizes that these GDRs may give
a “good layout . . . but are not necessarily optimized for
the local layout conditions.” Id.
Allan’s solution to the non-optimal layout
provided by “global” rules is a set of modifications to the
global rules, specific to “local layout conditions,” which
Allan refers to as “local design rules” (LDRs). Id. In
Figure 1, reproduced below, Allan illustrates an example
of its process for increased track widths where
permitted by local and global design rules.

App. 99

Id. at 1357.
Figure 1(a), reproduced above, describes an
“example layout” in which “the bottom metal track has a
track width LDR applied to it.” Id. In Figure 1(b), “the
track [width] is split into segments . . . and each segment
is tested.” Id. “If there is space above or below the
segment greater than that required for the GDR and the
LDR separation, a new wider segment is generated.” Id.
“All the design rules for the new larger segment are
checked, and if there are no violations[,] the change in
width is accepted,” as shown in Figure 1(c). Id. In
Figure 1(d), the segments are merged. Id.
In Figure 2, reproduced below, Allan describes
the algorithm used in Figures 1(a)–1(d).

App. 100

Id. at 1357.
Figure 2, reproduced above, describes the
algorithm used in Figures 1(a)–1(d) wherein the track is
split into segments, and for all the segments, if the space
above and below the segment is determined to be
greater than LDR + GDR, then the segment size can be
increased if the design rule check is OK. Then, the
segments are merged.

4. Claim 1
RPX contends Allan teaches all the steps recited
in independent claim 1. Pet. 27–47 (citing Ex. 1015; Ex.
1002 ¶¶ 312–378). Following institution of trial, IYM
argues Allan does not teach the limitation “enforcing
said new local constraints” (“disputed limitation”) and
does not address separately the remaining claim 1
limitations. See PO Resp. 28 n.8 (“While Patent Owner
believes that Allan is directed to entirely different
subject matter from the claimed invention of the ’012
Patent, and fails to disclose numerous claim limitations,
for ease of explanation Patent Owner focuses solely on
the dispositive issue of Allan’s failure to disclose the ’012

App. 101
Patent’s enforcement of new local constraint
distances.”). For completeness, in our discussion below,
where applicable, we incorporate our analysis of all the
claim 1 limitations set forth in the Decision to Institute,
and we address the RPX and IYM arguments regarding
the disputed limitation.
Beginning with the preamble “[a] method for
generating design layout artwork implemented in a
computer,” RPX contends Allan describes a computer
program (“LocDes”) that implements Allan’s techniques
for analyzing and generating a new layout in which the
program acts as a postprocessor of Caltech Intermediate
Format (CIF) layout, and “uses the GDR layout to
produce an enhanced circuit layout[.]” Pet. 28 (citing Ex.
1002, ¶¶ 313–3146; Ex. 1015, 1355:§ I, 1356:§ IV). RPX
additionally contends Allan’s program takes the original
layout in CIF format and processes it, using a set of
LDRs. Id. RPX argues Allan’s Figure 9 also shows the
program’s user interface, which allows the user to apply
LDRs to individually selected pieces of circuit geometry.
Id. (citing Ex. 1015, 1359:§ IV(C)(3), Fig. 9; Ex. 1002 ¶
314).
RPX contends Allan teaches the step “receiving a
design layout comprising a plurality of layout objects
residing on a plurality of layers.” Pet. 29–31 (citing Ex.
1002 ¶¶ 315–320). RPX argues Allan’s CIF layout
specification identifies each of the layout’s geometric
objects, including their coordinates and on what IC layer

6

Although RPX cites Exhibit 1002 ¶¶ 313–144, based on
the context, we understand Petitioner’s citation to be to
Exhibit 1002 ¶¶ 313–314.

App. 102
each object resides. Id. at 29 (citing Ex. 1002 ¶ 316; Ex.
1011, 115–27). According to RPX, a person of ordinary
skill in the art (“POSA”) “would have understood
receiving a layout in CIF format would encompass
receipt of a layout including multiple objects on multiple
layers.” Id. (citing Ex. 1002 ¶ 316); see also Ex. 1015,
1358–59:§ IV(B).
RPX contends that Allan teaches the step
“receiving descriptions of manufacturing process.” Pet.
16–18, 31–33 (citing Ex. 1002 ¶¶ 321–28). According to
RPX, this term should be assigned its plain and ordinary
meaning, and a POSA would have understood the plain
meaning of ”descriptions of manufacturing process” to
be consistent with its later use in claim 1—i.e.,
“computing local process modifications to change said
initial constraints using said descriptions of
manufacturing process.” Id. at 16–17. RPX argues a
POSA would have understood that the term
encompasses
sufficient
information
to
enable
“computing local process modifications.” Id.
RPX contends Allan describes receiving design
rules and simulation models. Id. at 31 (citing Ex. 1002 ¶
323). RPX further contends a POSA would have
understood Allan’s “design rules” and “simulation
models” to be examples of information describing a
“manufacturing process,” and this term (“manufacturing
process”) would be construed to cover one or both of
those, and/or other information. Id. at 31.
RPX contends defining Allan’s GDRs requires
knowledge of the process and normally includes the
generation of test structures or simulating such test
structures. Id. at 31 (citing Ex. 1015, 1356:§§ II–II(A)).
According to RPX, a POSA would have understood
Allan’s design rules to be reflective of a manufacturing

App. 103
process. Id. at 32 (citing Ex. 1002 ¶ 324). RPX argues
Allan notes that deriving LDRs requires even more
knowledge of the manufacturing process than GDRs
“since the problem is no longer a ‘simple’ matter of
finding one rule set to maximize yield of regular test
structures.” Id. (citing Ex. 1015, 1357:§ II).
RPX argues Allan teaches the step “constructing
a system of initial constraints among said layout
objects.” Pet. 33–37 (citing Ex. 1002 ¶¶ 329–340). RPX
argues the application of design rules (and circuit design
considerations) during the design process can determine
the “constraints” between adjacent layout objects. Id. at
34. RPX further argues “[c]onstructing the system of
initial constraints,” under IYM’s construction in the
Delaware Litigation, is determining the constraints
among layout objects in the design. Id. (citing Ex. 1015,
3:16–43; Ex. 1017, 4; Ex. 1002 ¶ 331).
RPX contends Allan describes generating a
system of constraints arising from application of the
GDRs during the design process, which constrains
positioning or other dimensions among layout objects.
Id. at 35. RPX contends Allan describes a set of GDRs,
and producing a layout that has been determined to be
compliant with the GDRs. Id. (citing Ex. 1015, 1356: §
IV(A)) (disclosing that “the original layout has been
passed by a design rule checker”). RPX argues
determining whether the original layout is compliant
with the design rules involves applying the rules to the
layout and creating constraints for each layout object.
Id. According to RPX, for example, Allan’s Figure 1
illustrates the result of applying a minimum interobject
distance rule between adjacent layout objects,
generating a compliant layout. Id. Figure 1(a) below,
annotated in red and blue by RPX, includes at least two

App. 104
layout objects, which for ease of description can be
termed the “top” object and the “bottom” object. Id. at
35–36 (citing Ex. 1002 ¶¶ 333–334).

In annotated Figure 1(a) above, RPX contends
the initial constraint of this example is derived from a
GDR regulating an interobject distance, wherein the
rule may generally specify that two objects may not be
closer than some specified minimum distance. Id. at 36.
RPX additionally contends the rule becomes a constraint
on the two objects shown in Figure 1(a)—i.e., the bottom
object must be separated from the top object by at least
the minimum distance. Id. RPX contends the constraint
imposed on the bottom object may be expressed as
“Space Above Object >= GDR,” where “GDR” is the
value of the minimum interobject distance specified by
the GDR. Annotated Figure 1(a) above shows the initial
constraint in red and the edges of the two objects

App. 105
driving the positioning of the two objects according to
the constraint in blue. Id. (citing Ex. 1002 ¶ 334).
RPX argues because Allan’s LocDes program is
“a design rule checker” that accepts “only those changes
that do not violate any of the global or other local design
rules,” Allan constructs a “system of initial constraints”
(under IYM’s construction) that captures the constraints
between layout objects in the received design layout. Id.
at 36–37 (citing Ex. 1015, 1356:§ IV, Ex. 100 ¶¶ 335–336).
RPX further argues determining this set of initial
constraints between layout objects is “constructing a
system of initial constraints among said layout objects.”
Id. at 37 (citing Ex. 1002 ¶ 337).
RPX argues Allan teaches the step “computing
local process modifications to change said initial
constraints using said descriptions of manufacturing
process.” Pet. 38–40 (Ex. 1002 ¶¶ 341–349). According to
RPX, the ’012 patent describes that “local process
modification to the design rule constraint distance
transforms the global design rule constraints into
location specific constraints.” Id. at 38 (citing Ex. 1001,
3:44–46). RPX contends the ’012 patent describes that
the “computing” includes either performing simulations
to derive the modifications or retrieving a
predetermined value from a look-up table. Id. (citing Ex.
1001, 5:1–6:2; see also Ex. 1001, claims 8 and 9; Ex. 1002
¶¶ 342–343).
RPX argues the values specified by Allan’s LDRs
are the “local process modifications.” Id. at 38.
According to RPX, Allan describes techniques to
compute the values for the LDRs, which may be stored
for use by its program, and Allan also explains that the
values of the LDRs are “changes” to the initial

App. 106
constraints. Id. (citing Ex. 1015, 1355–56:§ II; Ex. 1002 ¶
343).
RPX contends Allan describes evaluating a layout
using LDRs “to determine where changes in layout
generated from GDR set[s] should be performed.” Id.
(citing Ex. 1015, 1355:§ II). RPX further argues Allan’s
LDRs are the “local process modifications,” as recited in
claim 1. Id. RPX argues the LDRs define variations in
object dimensions with respect to the original GDRs,
based on local conditions within an IC layout. Id.
According to RPX, Allan specifically observes that
“[t]here are a number of potential layout changes that
can be made as follows: track displacement, increased
contact size . . . , increased contact overlap, increased
track width.” Id. at 38–39 (citing Ex. 1015, 1355:§ I).
According to RPX, Allan’s LDRs, which are the local
process modifications, change the initial constraints
(specifying values derived from the global rules) on a
layout. Id. at 39 (citing Ex. 1002 ¶ 344).
RPX contends Allan’s design rules, including its
local design rules, are generated using information on a
manufacturing process that is to be used, and are
reflective of that manufacturing process. Id. (citing Ex.
1015, 1355:§ II.). RPX contends LDRs are applied to
GDR-generated layouts to achieve this further local
optimization. Id. RPX additionally contends Allan also
discloses that, “[w]hile it is intended that the yield of the
resulting layout will be greater than the initial GDR
layout, this can be guaranteed only if the fabrication
process is understood well enough to ensure that the
LDRs are an accurate reflection of the relative yield of
the layout options under test.” Id. (citing Ex. 1015,
1355:§ I).

App. 107
RPX contends the Allan LDRs are computed
using the received simulation models. Id. at 40. RPX
contends the GDRs and the simulation models are a
“description of manufacturing processes.” Id. RPX
contends Allan explains that multiple LDRs can be
derived from the simulation results. Id. (citing Ex. 1015,
1356:§ II(A)). According to RPX, a POSA would have
appreciated that, when a tool “applies” an LDR in this
manner, the LDR would be predefined, based on the
simulations as discussed above, and that the “value” for
the LDR would be retrieved from storage. Id. (citing Ex.
1002 ¶ 347). RPX contends retrieving the value for an
LDR from a data storage falls within the scope of
“computing” a local process modification in this
limitation. Id. (citing Ex. 1002 ¶ 348).
RPX argues Allan teaches the step “constructing
new local constraint distances by combining said local
process modifications with constraint distances in said
system of initial constraints.” Pet. 40–43 (citing Ex. 1002
¶¶ 350–361). According to RPX, Allan discloses
constructing new local constraint distances by creating
new constraints for existing and/or new layout objects,
and by combining values specified by LDRs (the local
process modifications) with the constraint distances in
the initial constraints. Id. at 40 (citing Ex. 1002 ¶ 351).
RPX argues Allan describes an example of
“constructing new local constraint distances.” Id. at 41.
Allan’s Figure 1(a), below, annotated by RPX, shows the
initial constraint.

App. 108

Figure 1(a) annotated by RPX to show one initial
constraint
RPX argues Allan’s Figure 1(b), below, annotated
by RPX, illustrates that an original object, to which the
single initial constraint was applied, is divided into a set
of local objects, such that a local constraint may be
identified as a modification of the single initial
constraint. Id.

App. 109

Figure 1(b) annotated by RPX to show 16 new local
constraints.
RPX argues the new local constraint distances
include a constraint distance for each of the new bottom
objects (with the existing, top object), where before
there was a single constraint, and the new local
constraint distances also result from modifying the
initial constraint to have a different constraint distance.
Id. at 41–42. RPX also argues Allan describes that a
local value for an LDR is added to an initial value from
the initial constraint (the GDR) to yield the value for the
new local constraint. Id. at 42. According to RPX, the
new local constraints may even be evaluated using
different edges in the layout, as illustrated by comparing
the blue lines in annotated Figure 1(b) above. Id. (citing
Ex. 1002 ¶¶ 352–355).
RPX argues Allan’s process leverages the new
constraint distances to determine whether and how it
can make adjustments to the layout, wherein the new
local constraints are evaluated for each local layout

App. 110
object and constrain the ability of Allan’s process to
make adjustments to the layout in the area of that local
layout object. Id. (citing Ex. 1015, 1356:§§ I, IV
(disclosing that the process “attempts small changes in
layout based on the LDR’s,” accepts “only those changes
that do not violate any of the global or other local design
rules,” and “no changes are made to the layout except
where there is good evidence to suggest that a higher
yield can be obtained”) Ex. 1002 ¶ 356)).
RPX argues, in Figure 2, annotated by RPX
below, Allan illustrates the new local constraint for each
local object, and the process of constructing a new local
constraint distance by combining a local process
modification with a constraint distance for an initial
constraint (id.):

RPX argues, in annotated Figure 2 above, the
constraint for each of the multiple “bottom” objects are
“Space Above Segment >= LDR + GDR,” and the new
local constraint is created by combining a local process
modification value (specified by an LDR) with the
constraint distance specified by the initial constraint
(specified by a GDR). Id. at 43. RPX argues this new
local constraint differs from the initial constraint
discussed above regarding Figure 1(a): “Space Above
Object >= GDR”. Id. (citing Ex. 1002 ¶¶ 357–358).
RPX argues each combination of LDR + GDR
(i.e., each new local constraint distance) constrains a
modification that could be made by Allan’s LocDes
program. Id. According to RPX, in Allan’s Figure 2, the
combination LDR + GDR constrains whether and how
much the track width can be increased by a distance

App. 111
between objects, and therefore creates a “new local
constraint distance.” Id. (citing Ex. 1015, 1357:§ IV(A)(1)
(“If there is space above or below the segment greater
than that required for the GDR and the LDR
separation, a new wider segment is generated. All the
design rules for the new larger segment are checked,
and if there are no violations, the change in width is
accepted (Fig. l(c)).”); Ex. 1002 ¶ 359).
In view of the above, we determine that RPX has
met its burden to show, by a preponderance of the
evidence, that Allan teaches or suggests the above
limitations of claim 1.

The disputed limitation: “enforcing said new local
constraint distances”
As discussed in our claim construction section,

supra, RPX and IYM dispute the construction of the

phrase “enforcing said new local constraint distances”
wherein RPX contends this phrase does not require
removing violations and IYM contends this phrase
requires removing violations. We agree with RPX’s
construction that this phrase does not require removing
violations because the Specification only describes
removing violations in the context of preferred
embodiments. Instead, we construe this phrase to mean
“solving a set of equations or constraints after
incorporating the new local constraints,” which is
consistent with the description of Figure 2 in the
Specification of the ’012 patent, the plain language of
independent claim 1, and the construction in the
Delaware Litigation. Ex. 1001, 4:18–54, 8:29–32, Fig. 12;
Ex. 2015, 4 n.4.
RPX argues Allan teaches the disputed limitation
as properly interpreted. Pet. 43–44; Pet. Reply 3–10.
Alternatively, RPX argues that, even applying IYM’s

App. 112
alleged incorrect and narrow interpretation requiring
removing violations, Allan still teaches the disputed
limitation. Pet. Reply 10–19. We begin our analysis by
addressing RPX’s position that Allan teaches the
disputed limitation as properly interpreted and then we
turn to RPX’s alternative position.
RPX argues Allan teaches the step “enforcing
said new local constraint distances.” Pet. 43–44 (citing
Ex. 1002 ¶¶ 362–365). RPX argues Allan evaluates
opportunities for modifying the layout geometry in
accordance with the local design rules, so long as such
modifications do not violate any of the constraints. Id.
(citing Ex. 1015, 1356:§ IV (LocDes program “accept[s]
only those changes that do not violate any of the global
or other local design rules.”).
RPX argues Allan discloses that the algorithm in
Figure 2 is “used by the program to adjust layout.” Id.
at 44 (citing Ex. 1015, 1356:§ IV(A), Fig. 2 (showing that
the conditional “if (Space Above/Below Segment >=
LDR + GDR)” enforces the new constraint by
permitting movement up until this condition fails)). RPX
argues the “DesignRuleCheck” in combination with
“Space Above/Below Segment >= LDR + GDR”
enforces the constraints. Id. (citing Ex. 1002 ¶ 364).
In its Response, IYM contends Allan does not
teach removing violations and, therefore, does not teach
or suggest the disputed limitation. PO Resp. 28–33.
According to IYM:
In summary, in Allan, either (i) a track
segment’s width is increased because there are no
violations of the purported “new local constraint
distances” (i.e., “LDR+GDR”), or (ii) a track
segment’s width is not increased precisely
because the layout violates (and continues to

App. 113
remain in violation of) the purported new local
constraint distances. In either situation, Allan
plainly does not teach the claimed step of
“enforcing said new local constraint distances,”
and in fact it teaches quite the opposite: if there is
a violation, leave it; if there is none, keep
increasing the track segment until a violation is
created. Ex. 2012, Bernstein Dec. at ¶ 123.

Id. at 33.
In its Reply, RPX argues Allan discloses the
disputed limitation because the claim does not require
removing violations, and notes “IYM had every
opportunity to draft the claims more narrowly to be
limited to removing violations of new local constraint
distances but did not.” Pet. Reply 4–9.
In its Sur-Reply, IYM argues its proposed claim
construction (requires removing violations) applies and
argues, “[i]f, however, the claimed method is able to
successfully remove at least some existing violations,
then ’enforcement’ has occurred.” PO Sur-Reply 1–2
(citing Ex. 1027, 218:5–221:12; 341:5–342:10).
Based on the record developed during trial, we
agree with RPX because, under the correct construction
(removing violations is not required), Allan teaches the
disputed limitation. In particular, as discussed, supra,
Space Above/Below Segment >=LDR+GDR are
constraints that are enforced in Allan because the
modifications to the layout resulting from LDR+GDR
solve problems arising from an initial set of GDRs
without violating any other GDRs or LDRs. Ex. 1015,
1356. Stated differently, after incorporating the new
local constraints (i.e., LDRs) into the GDR constraints,
Allan solves the initial problems arising from these
GDRs by permitting movement without violating any

App. 114
other GDRs or LDRs. We credit Dr. Nagle’s testimony,
referring to Figure 2 of Allan, that the conditional “if
(Space Above/Below Segment >= LDR + GDR)
enforces the new constraint by permitting movement up
until this condition fails” because this testimony is
consistent with the teachings in Allan discussed above.
Ex. 1002 ¶ 364.
Additionally, assuming arguendo that the
disputed limitation requires removing violations, RPX
argues Allan also teaches the disputed limitation. Pet.
Reply 11. According to RPX, Allan’s “Increase Track
Width” enforces new local constraint distances and is
done by “imposing new local maximum constraint
distances on the available space above and below each
new segment.” Id. (citing Pet. 22–27; Ex. 1015, Figs. 1, 2,
1355–57). According to RPX, the LocDes program
decreases the space above/below until the space
above/below is no longer greater than or equal to the
new maximum local constraint distance (“LDR +
GDR”), at which point no further increases in the
segment size will be made. Id. at 13. RPX then argues
“the routine thus seeks to remove violations of the new
local maximum constraint on the space above/below the
segment by increasing the segment until the maximum
constraint on the free space above/below the segment is
no longer violated–i.e., the space above/below is less than
LDR+GDR.” Id. at 13–14 (citing Allan at 1355–57).
In its Sur-Reply, IYM argues RPX’s argument in
its Reply that Allan’s LDR+GDR is a maximum
constraint on the space between tracks should not be
entitled to consideration because it is a new argument
that should have been raised earlier. Sur-Reply 3 (citing

Intelligent Bio-Systems, Inc. v. Illumina Cambridge
Ltd., 821 F.3d 1359, 1369–70 (Fed. Cir. 2016)). According

App. 115
to IYM, RPX’s position is inconsistent with the position
taken in the Petition that the space above segments
must be greater than, or equal to, “‘LDR+GDR’–-an
alleged minimum spacing requirement.” Id. at 3–4. IYM
further argues RPX’s assertion of a maximum constraint
is not supported by the record and notes there is no
Reply declaration from Dr. Nagel supporting this
position and, therefore, no citation to Dr. Nagel’s
testimony. Id. at 5–6. According to IYM, Allan limits
track increase to 1.5x the minimum track width, 1.5x the
minimum spacing, no global design rules are violated,
and includes no requirement to keep increasing track
width until the space falls below LDR+GDR. Id. at 6–8
(citing Ex. 1015 at 1360, Ex. 1027, 238:18–240:13, 146:6–
147:12).
We agree that RPX’s argument that Allan’s
LDR+GDR is a maximum constraint on the space
between tracks is a new argument presented for the first
time in the Reply Brief. Although a constraint may be a
minimum or a maximum constraint, based on the record
developed during trial, RPX’s belated presentation of
this argument unfairly prejudices IYM and, therefore,
should not be entitled to consideration.

Remaining undisputed claim 1 limitations
RPX argues Allan teaches the step “updating the
coordinate variables of layout objects according to the
solutions obtained from enforcing said new local
constraint distances.” Pet. 44–45 (citing Ex. 1002 ¶¶ 366–
371). RPX contends Allan describes that its program
“produce[s] an enhanced circuit layout” and “adjust[s]
layout” by using LDRs “to determine where changes in
layout … should be performed.” Id. at 44 (citing Ex.
1015, 1355:§§ I–II, 1356:§ IV(A)). RPX argues, as shown
in Figure 2 of Allan and discussed supra, if the “if”

App. 116
statement is satisfied, then track width is increased. Id.
at 45. According to RPX, if these conditions are satisfied,
the layout geometry is modified, and then stored in a
data structure. Id. (citing Ex. 1015, 1358–59:§ IV(B),
Fig. 2); see also Ex. 1015, Fig. 1, 1357:§ IV(A)(1); Ex.
1002 ¶¶ 368–370.
Finally, RPX argues to the extent that the
“whereby” clause in claim 1 is limiting, Allan discloses
“whereby a new layout is produced that has increased
yield and performance.” Pet. 45–47 (citing Ex. 1002 ¶¶
372–376). RPX argues that in the Delaware Litigation,
IYM contends that the phrase “whereby a new layout is
produced that has increased yield and performance” is
part of a “whereby” clause “that is not limiting and
therefore does not need to be construed.” Id. at 46
(citing Ex. 1017, 15). RPX argues IYM should not be
permitted to take a contrary, narrower position here. Id.
(citing Rembrandt, 853 F.3d at 1377 (“[T]he Board in
IPR proceedings operates under a broader claim
construction standard than the federal courts.”).
RPX argues Allan is titled “An Yield
Improvement Technique for IC Layout Using Local
Design Rules,” which describes that design rules are
used to constrain IC layouts “in an attempt to maximize
the yield, performance, and reliability.” Id. (citing Ex.
1015, 1355:§ I). RPX contends Allan discloses that “[t]he
yield can be increased by more effective use of silicon
area through the application of local design rules to
layouts that have been generated from the normal
‘global’ design rules.” Id. (citing Ex. 1015, 1362:§ VI
(“Local design rules can be used to increase the yield in
processes that suffer from conductor shorts, contact
problems, and conductor breaks[.]”)). According to RPX,
a POSA would have understood that Allan’s techniques

App. 117
are intended to generate a new layout resulting in
fabricated integrated circuits with increased yield and
performance. Id. (citing Ex. 1002 ¶¶ 374–375).
In view of the above, we determine that RPX has
met its burden to show, by a preponderance of the
evidence, that Allan teaches or suggests the remaining
undisputed limitations of claim 1.

Other claim 1 issues
IYM argues (1) Allan addresses a fundamentally
different problem than the one addressed by the ‘012
patent because Allan doesn’t disclose the same solution
provided by the ‘012 patent; and (2) RPX blurs the line
between anticipation and obviousness. Prelim. Resp. 23–
42.
Regarding the fundamentally different problem,
IYM contends the ‘012 Patent is directed to solving a
hotspot problem not addressed by Allan, whereas Allan
is directed to a very different problem of the best use of
any redundant space on an initial layout. Id. at 23–24.
Based on the record developed during trial, we
are not persuaded by IYM’s argument in this regard
because claim 1 does not recite hotspots, much less
solving a hotspot problem. Ex. 1001, 8:16–34. We note
dependent claim 6 recites hotspots (id. at 8:48–53);
however, RPX’s challenge to claim 6 is not based on
Allan alone, but instead is based on Allan in combination
with Kroyan. Pet. 67–68. In addition, we note that it is
well-settled that simply because a reference has a
different objective does not preclude a person of
ordinary skill in the art from using its teachings in an
obviousness evaluation. See In re Heck, 699 F.2d 1331,
1333 (Fed. Cir. 1983) (“The use of patents as references
is not limited to what the patentees describe as their

App. 118
own inventions or to the problems with which they are
concerned. . . .”); see also EWP Corp. v. Reliance
Universal Inc., 755 F.2d 898, 907 (Fed. Cir. 1985) (“A
reference must be considered for everything that it
teaches, not simply the described invention or a
preferred embodiment.”).
We also are not persuaded by IYM’s argument
that RPX blurs the line between anticipation and
obviousness.
Prelim.
Resp.
25–26.
Regarding
obviousness based on Allan alone, RPX explains:
The claims call out specific features that do not
contribute to the purported inventiveness of the
’012 patent and are instead the type of
information that publications in this field typically
assume is within the reader’s knowledge and do
not explicitly discuss. For this reason, . . .
obviousness grounds are presented rather than
anticipation, even where a single reference is
cited. Dr. Nagel’s testimony is cited for these
well-known features, together with supporting
evidence.
Pet. 8.
Under the circumstances described by RPX, it is
appropriate to apply a single prior art reference—in this
case, Allan—together with the background knowledge of
one of ordinary skill in the art—as evidenced by Dr.
Nagel’s
supporting
testimony—in
analyzing
obviousness. See Monsanto Tech. LLC v. E.I. DuPont
de Nemours & Co., 878 F.3d 1336, 1346–47 (Fed. Cir.
2018) (“Though less common, in appropriate
circumstances, a patent can be obvious in light of a
single prior art reference if it would have been obvious
to modify the reference to arrive at the [claimed]
invention.”) (quoting Arendi S.A.R.L. v. Apple Inc., 832

App. 119
F.3d 1355, 1361 (Fed. Cir. 2016)); see also Realtime Data
LLC v. Iancu, 912 F.3d 1368, 1373 (Fed. Cir. 2019)
(affirming the Board’s conclusion that claims were
obvious based on one prior art reference alone,
notwithstanding patent owner’s argument that the
ground at issue would have been more properly raised
under 35 U.S.C. § 102).

Summary
In view of the above, we find RPX has shown, by
a preponderance of the evidence, that the subject matter
of claim 1 is unpatentable over Allan.

5. Dependent claims 2–5, 13, and 14
RPX contends Allan teaches the limitations of
dependent claims 2–5, 13, and 14. Pet. 47–57 (citing Ex.
1015; Ex. 1002 ¶¶ 379–398, 406–414). IYM does not
address separately RPX’s explanations and supporting
evidence as to how the teachings of Allan account for the
limitations of dependent claims 2–5, 13, and 14. See
generally PO Resp. 24–47. We have reviewed RPX’s
explanations and supporting evidence regarding these
dependent claims, and we agree with and adopt RPX’s
analysis showing that the teachings of Allan account for
all the limitations recited in dependent claims 2–5, 13,
and 14. See Pet. 47–57. RPX, therefore, has shown, by a
preponderance of the evidence, that dependent claims 2–
5, 13, and 14 are unpatentable over Allan.

6. Claim 10
Regarding claim 10, RPX argues Allan discloses
“the step of enforcing new local constraint distances
comprises optimizing a predefined objective function for
optimizing measurable performance of a layout, subject
to said new local constraint distances.” Pet. 53 (citing
Ex. 1002 ¶¶ 398–401). According to RPX, in its

App. 120
enforcement of new local constraint distances, Allan
discloses “optimizing a predefined objective function.”
Id. RPX contends, in the pseudocode (Figure 2), Allan
discloses predefined objective functions—namely, that
distances meet certain LDR + GDR statements—
without violating “any of the global or other local design
rules.” Id. (citing Ex. 1015, 1356:§ IV; Ex. 102l ¶¶ 399–
400).
RPX contends Allan explains that the initial
GDRs “are not necessarily optimized for the local layout
conditions.” Id. (citing Ex. 1015, 1355:§I). According to
RPX, Allan’s LDRs “define the best values of track
width and contact size/overlap in relation to the local
layout conditions” and RPX contends Allan notes “that
the yield of circuits fabricated-using layout generated
from a GDR set can be increased by searching for
instances of local nonoptimal layout, applying an LDR
set, and adjusting the layout to meet the new design
rules.” Id. According to RPX, this optimization is done in
accordance with LDRs, which are design rules that
“attempt to maximize . . . performance.” Id. at 54 (citing
Ex. 1015, 1355:§I (“[Design] rules determine the
minimum size and spacing of all layers of the circuit
geometry in an attempt to maximize the yield,
performance, and reliability.”); Ex. 1002 ¶ 401).
IYM contends Allan does not disclose the
limitation of dependent claim 10. PO Resp. 38–42.
According to IYM, referring to a dictionary definition,
an objective function is “the function of which one seeks
the optimum [e.g., maximum or minimum] in an
optimization problem, especially one with constraints.”
Id. at 39 (citing Ex. 2021 at 396, 401 (Collins Dictionary
of Mathematics (2d ed. 2002))). IYM argues, “Consistent
with that definition, the ’012 patent describes an

App. 121
embodiment for enforcing the new local constraint
distances through the use of ‘an objective function Ct*X,
where Ct is a row vector of coefficients for achieving
various optimization objectives.’” Id. (citing Ex 1001 at
4:22–24). According to IYM, in this embodiment, the
enforcing step solves the linear system of minimizing
Ct*X, subject to the new local constraint distances. Id.
(citing Ex. 1001, 4:35–36; Ex. 2012 ¶ 133).
Applying this definition, IYM argues Allan simply
discloses three algorithms for attempting to take
advantage of unused layout space and RPX appears to
rely on the “if” statements discussed, supra, that allow a
layout object to be moved on the conditions that there is
sufficient space and no design rules will be violated. Id.
at 40 (citing Pet. 53). According to IYM, the “if”
statement “cannot be an “objective function” because
Allan does not attempt to minimize or maximize it. Id.
IYM argues Dr. Nagel’s statement that Allan’s
“Increase Segment Size (Top)” is an instruction to
increase segment size, not an objective function to be
optimized. Id. at 40 (citing Ex. 1002 ¶ 400; Ex. 2012 ¶
134). IYM further argues RPX’s characterization of
Allan is incorrect and based on partial and out of context
quotations. Id. For example, according to IYM, Allan’s
reference to “best values” is merely laudatory and
RPX’s contention that Allan’s optimization is done in
accordance with LDRs that attempt to maximize
performance is incorrect because Allan is referring to
global design rules, not local design rules. Id. at 41–42
(citing Pet. 53–54; Ex. 1015, 1355, 1356; Ex. 2012 ¶ 135).
In its Reply Brief, RPX, once again, refers to
Allan’s LocDes Program and Dr. Nagel’s explanation
that Allan discloses predetermined objective functions—
namely, that distances meet certain LDR+GDR

App. 122
statements—without violating any of the global or other
local design rules. Pet. Reply 19 (citing Pet. 53–54; Ex.
1002 ¶¶ 398–401). According to RPX, Allan’s LocDes
Program seeks to locally optimize the width of every
track segment by minimizing the free space above/below
the segment by optimizing the objective function and
thereby maximize the width of the track segment to
increase yield. Id. at 20 (citing Ex. 1015, § II A. 2–3).
RPX notes Allan’s statement, “[w]hile this will not
necessarily give the optimal layout, it will produce a
good approximation to it in a reasonable time.” Id. at 21
(citing Ex. 1015, 1356: § IV). RPX then argues “an
objective function is one that seek the optimum” and
that is what Allan does by optimizing the layout
pursuant to the imposed constraints. Id.
In its Sur-Reply, IYM submits that RPX presents
an impermissible first time argument–that Allan seeks
to maximize the track width by minimizing available
spaces above/below it–because the Petition only alleged
that “Allan discloses predetermined objective functions,
namely that distances meet certain LDR+GDR
statements.” PO Sur-Reply 9 (citing Pet. 53; Pet. Reply
20). IYM also further argues Allan does not seek to
minimize the space between tracks, because any
decrease in spacing is subject to conditions on track
width increase. Id.
Based on the record developed during trial, we
are not persuaded by RPX’s arguments, particularly
because, although Allan teaches, subject to the
constraints, minimizing the free space above/below the
segment by optimizing the objective function and
increasing the width of the track segment to increase
yield, RPX specifically argues Allan teaches maximizing
the width of the track segment. We agree with IYM that

App. 123
this is an impermissible new argument. Petitioner’s
arguments prior to the Reply Brief address only the
minimum constraints >= LDR + GDR and they do not
characterize the constraint as seeking to maximize the
track width by minimizing available spaces above/below
it. Compare Pet. 53–54, with Pet. Reply 20. This
argument appears for the first time in the Reply Brief
and appears to be directed to IYM’s uncontested
proffered definition, supra, that an “objective function is
the function of which one seeks the optimum (e.g.,
maximum or minimum) in an optimization problem,
especially one with constraints.” Additionally, RPX’s
arguments regarding claim 10 are not persuasive
because RPX has not demonstrated sufficiently that the
width is maximized.
In view of the above, we find RPX has not shown,
by a preponderance of the evidence, that the subject
matter of claim 10 is unpatentable over Allan.

7. Claim 11
RPX contends claim 11 is written in Markush
format, as it recites the phrase “selected from a group
consisting of.” Pet. 54 (citing Abbott Labs. v. Baxter
Pharm. Prod., Inc., 334 F.3d 1274, 1280 (Fed. Cir. 2003)).
As such, RPX contends Allan need only disclose one of
the three listed objective functions to disclose this
limitation and Allan discloses at least two of the
limitations of claim 11. Id. (citing Nagel ¶¶ 402–405).
Regarding the first limitation, “objective function
for legalizing the layout with minimal changes from the
original layout,” RPX argues Allan states that “no
changes are made to the layout except where there is
good evidence to suggest that a higher yield can be
obtained.” Id. (citing Allan, 1355:§ I). RPX argues Allan
further cautions “that any changes that result from the

App. 124
application of LDRs to a layout do not cause a
degradation in performance of the circuit.” Id. (citing
Allan, 1356:§ III). According to RPX, Allan’s procedure
thus “legaliz[es] the layout” (with respect to the LDRs)
“with minimal changes from the original layout” (by
virtue of not making unnecessary or harmful changes).
Id. at 54–55 (citing Nagel ¶ 404).
In its Response, IYM argues Allan’s changes are
not “minimal” as Allan makes many changes, including
unnecessary changes. PO Resp. 42–44 (citing Pet. 54–55;
Allan Figs. 12 (a), (b)); Ex. 1015, 1361; Ex. 2013; Tr.
127:9–16, 124:7–24; 126:12–14; Ex. 2012 ¶ 138). IYM
argues Allan teaches its methods are used only “once the
area has been defined,” and does not attempt to optimize
the layout at all.” Id. at 46 (citing Ex. 1015 at 1355; Ex.
2013, 157:2–17, 123:18–25, 152:24–153:2; Ex. 2012 ¶¶ 140,
141).
In its Reply Brief, RPX counters that Allan’s
objective function (Space Above/Below Segment>=
LDR+GDR), discussed supra, establishes that no
change is made based on LDRs unless good evidence
exists that it would increase yield and not degrade
performance. Pet. Reply 21 (citing Pet. 54–55).
According to RPX, like the ‘012 patent, Allan makes
changes only because they are believed to increase yield.
Id. at 22 (citing PO Resp. 42; Ex. 1002 ¶ 42; Ex. 2012 ¶
37; Ex. 1001, Abstract, 3:1–3; Tr. 5:22–6:5, 65:18–20).
IYM asserts in its Sur-Reply that RPX reiterates
in its Reply that Allan does not change a layout “unless
‘good evidence’ exists that it would increase yield and
not degrade performance,” while ignoring Patent
Owner’s evidence that Allan’s techniques do not
“legaliz[e] the layout with minimal changes.” PO SurReply 9 (citing Reply Br. at 21). According to IYM,

App. 125
RPX’s’ unsupported argument that Allan’s undefined
“good evidence” results in minimal layout changes is
contradicted by Allan’s teachings and Dr. Nagel’s
testimony. Id. (citing Resp. at 42–43).
Based on the record developed during trial, we
are persuaded by RPX’s arguments, particularly Allan’s
teaching that “no changes are made to the layout except
where there is good evidence to suggest that a higher
yield can be obtained.” Ex. 1015, 1355, § I. Allan
expressly teaches no changes are made, except where
there is good evidence to suggest higher yield, and
IYM’s assertions to the contrary, regarding purported
unnecessary changes, do not outweigh the express
general teaching of Allan. Thus, we are persuaded that
Allan teaches the claim 11 limitation “objective function
for legalizing the layout with minimal changes from the
original layout.”
Therefore, we find RPX has shown, by a
preponderance of the evidence, that Allan teaches this
limitation. Because claim 11 is written in Markush
format, RPX has shown Allan teaches the subject matter
of this claim by teaching one of the three limitations
recited therein. See supra.

C. Obviousness Over the Combined Teachings of Allan
and Kroyan
RPX contends that claims 4 and 6–9 of the ’012
patent are unpatentable under § 103(a) over the
combined teachings of Allan and Kroyan. Pet. 64–71.
RPX explains how this proffered combination teaches or
suggests the subject matter of each challenged claim,
and provides reasoning as to why one of ordinary skill in
the art would have been prompted to modify the
references’ teachings. Id. RPX also relies upon the
Declaration of Dr. Nagel to support its positions. Ex.

App. 126
1002 ¶¶ 416–61. IYM’s arguments solely focus on
dependent claim 9. PO Resp. 47–52. IYM relies on the
Declaration of Dr. Bernstein to support its positions. Ex.
2012 ¶¶ 142–147.
We begin our analysis with a brief overview of
Kroyan, and then we address the parties’ arguments and
evidence with respect to dependent claim 9.

1. Kroyan Overview
Kroyan generally relates to a system and method
for designing ICs fabricated by a semiconductor
manufacturing process and, in particular, to designing
ICs to enhance manufacturability and improve yield. Ex.
1006, 1:22–28. Figure 3 of Kroyan, reproduced below,
illustrates a method for IC design in accordance with
one embodiment. Id. at 4:43–45.

App. 127

Figure 3 of Kroyan, reproduced above, illustrates that,
at step 203 the analysis engine receives input layout 201
and design rules 202. Id. at 5:63–66. The analysis engine
evaluates the layout and design rules by determining

App. 128
distinct pattern types that “have different criticality
leading to different manufacturability margin
requirements.” Id. at 6:4–7. In step 204, certain pattern
instances 206 are extracted. Id. at 6:17–18. Similarly, at
step 205, localized design rules are produced that
correspond to each extracted pattern instance. Id. at
6:18–20. At step 208, each pattern instance and localized
design rule is selected for an evaluation of
manufacturability indices at step 209. Id. at 6:20–23. At
step 210, the results of calculating the manufacturability
indices are compared against past tolerances 211. Id. at
6:30–31. In step 212, if the results are within the
tolerances, the selected design rules are suitable for the
given pattern instances. Id. at 6:31–34. The process then
proceeds to step 214, where the layout is processed
according to these selected design rules. Id. at 6:34–35.
At step 213, if more refinement is needed, the process
returns to step 203 for further analysis. Id. at 6:35–39.
Figure 9 of Kroyan, reproduced below, illustrates
a flow diagram of an intelligent analysis and
optimization resolution enhancement technique in
accordance with another embodiment. Ex. 1006, 4:62–64.

App. 129

Figure 9 of Kroyan, reproduced above, illustrates that,
at step 4001, the input design layout first is scanned and,
at step 4002, the output layout patterns are compared
against data stored in database 4008. Id. at 9:1–5. At
step 4003, if a match is found, an optimization result is
retrieved at step 4004. Id. at 9:6–7. At step 4005, if a
match is not found, then a decision is made whether to
store the results in the database at step 4006. Id. at 9:7–
11. If the results are stored, database 4008 is updated at
step 4007. Id. at 9:11–12.

2. Claims 4 and 6–8
IYM does not address separately RPX’s
explanations and supporting evidence as to how the
teachings of Allan and Kroyan account for the

App. 130
limitations of dependent claims 4 and 6–8. See generally
PO Resp. 47–52. We have reviewed RPX’s explanations
and supporting evidence regarding these dependent
claims, and we agree with and adopt RPX’s analysis
showing that the combined teachings of Allan and
Kroyan account for all the limitations recited in
dependent claims 4 and 6–8. See Pet. 64–71. RPX,
therefore, has shown, by a preponderance of the
evidence, that the subject matter of dependent claims 4
and 6–8 is unpatentable over Allan and Kroyan.

3. Claim 9
Claim 9 depends from independent claim 1, and
further recites “wherein the step of computing local
process modification comprises searching a look-up data
table.” Ex. 1001, 8:63–65.
In its Petition, RPX contends that the ’012 patent
states that a “local process modification value” for
adjusting a layout constraint can be determined from
either simulation or using “look-up data tables” that
store “pattern recognition.” Pet. 71 (citing. Ex. 1001,
5:1–6:2; Ex. 1002 ¶ 456). RPX argues that Kroyan’s
knowledge database may be used to retrieve an
“associated remedial solution” that could be provided to
an optimizer. Id. (citing Ex. 1006, 9:1–7, 10:46–58, 11:55–
12:3). According to RPX, Kroyan’s “associated remedial
solution” that is provided to the optimizer constitutes
the “local process modification,” recited in independent
claim 1. Id. (citing Ex. 1002 ¶¶ 457–460). In the Allan and
Kroyan combination, RPX argues that Kroyan’s
knowledge database would be used to identify a value for
an LDR to be applied and, therefore, teaches the
limitation of dependent claim 9. Id. (citing Ex. 1002 ¶
461).

App. 131
Turning to the rationale to combine the teachings
of Allan and Kroyan, RPX contends that it would have
been obvious to a person of ordinary skill in the art to
generate a knowledge database, as taught by Kroyan, to
facilitate the analysis of the layout and GDRs, and
eventual application of the LDRs, as taught by Allan.
Pet. 61 (citing Ex. 1002 ¶ 421). According to RPX,
developing a knowledge database is a simple design
choice for using a particular data structure that achieves
the predictable result of being able to “best capture
known problematic patterns and apply the appropriate
treatment.” Id. (quoting Ex. 1006, 8:6–8) (citing Ex. 1002
¶ 421)).
In its Response, IYM argues a person of ordinary
skill in the art would have no motivation to combine the
teachings of Kroyan with those of Allan to result in the
limitation of dependent claim 9. PO Resp. 47–52. In
particular, IYM argues a POSA would have no
motivation to combine Kroyan’s purported “lookup data
table” with Allan’s local design rules. Id. at 47 (citing Ex.
2012 ¶ 142). According to IYM, Dr.’s Nagel’s statement
that a POSA would know how to make the combination
is insufficient, as it does not indicate why a POSA would
be motivated to make the combination. Id. at 48–49
(citing Ex. 1002 ¶¶ 461, 421; Ex. 2012 ¶ 143; Pet. 60–61;
Polaris Indus., Inc. v. Arctic Cat, Inc., 882 F.3d 1056,
1068–69 (Fed. Cir. 2018) (improper to “focus[] on what a
skilled artisan would have been able to do, rather than
what a skilled artisan would have been motivated to do
at the time of the invention”)). IYM argues RPX’s
reliance on a “simple design choice” is conclusory. Id. at
49 (citing Ex. 1006 8:6–8; Ex. 1002 ¶ 421; Pet. 61).
According to IYM, Allan discloses three LDRs
and there would be no reason to resort to Kroyan’s

App. 132
knowledge database, which includes a large amount of
data storing a comprehensive set of problematic
patterns and associated remedial solutions. Id. at 49–51
(citing Ex. 1006 11:66–12:2; Ex. 2013, 170:12–15, 170:17–
20, 172:1–2, 172: 9–21, 172:22–173:6; Ex. 2012 ¶ 144).
IYM argues Kroyan’s knowledge database serves a
purpose not relevant to Allan, as Kroyan needs a
database of storing and quickly accessing a
“comprehensive set” of unique “problematic patterns”
and their associated remedial solutions.” Id. at 50–51
(citing Ex. 1006, 11:65–12:2; Ex. 2013 172:1–7; Ex. 2012 ¶
145). IYM argues that Dr. Nagel agreed that Allan’s
three LDRs apply to all metal tracks in the layout and,
therefore, a POSA would not look to Kroyan’s
knowledge database to select an LDR based on wire and
contact geometry patterns, “because the same LDRs
would apply to every geometry pattern.” Id. at 51–52
(citing Ex. 2013, 173:23–175:12; Pet. 60; Ex. 2012 ¶¶ 146,
147).
In its Reply Brief, RPX argues that Allan
searches for instances of local non-optimal layout and
applies LDRs to adjust the layout, and a POSA would
have reason to use a lookup table like Kroyan’s (which
includes images of non-optimal layouts and solutions to
them) to identify non-optimal portions of Allan’s layout
and to provide LDRs to address these non-optimal
layouts, because doing so simply applies Kroyan’s known
technique for achieving these results, and it would have
been an obvious design choice to implement in Allan.
Pet. Reply 24 (citing Pet. 59–64). According to RPX,
developing a knowledge database is a simple design
choice for using a particular data structure that achieves
the predictable result of being able to “best capture
known problematic patterns and apply the appropriate

App. 133
treatments.” Id. at 25 (quoting Ex. 1006, 8:6–8) (citing
Pet. 60–61; Ex. 1002 ¶ 421). RPX additionally argues the
lookup table would store a different value to assign to
the LDR for different non-optimal configurations. Id.,
citing Pet. at 59–64. RPX argues IYM’s assertion that
Allan uses only three LDRs is wrong as Dr. Nagel
testified that there are “three types of LDR’s,” not “only
three LDR’s,” and Dr. Nagel testified there would be
thousands of LDRs in Allan. Id. at 25 (citing PO Resp.
50; Ex. 2013, 172:22–173:6). According to RPX, Allan
does not teach that every instance of a type of LDR
must share the same value because different values for
the same type of LDR (e.g., for increasing track width)
may be applied to different areas of the layout, and a
lookup table, as taught by Kroyan, was an obvious way
to store predefined LDR values for different nonoptimal
local layout conditions. Id. at 25–26 (citing Pet. 59–64).
In its Sur-Reply, IYM argues RPX did not
address IYM’s assertion that Allan teaches width LDRs
generally apply 1.5x minimum spacing throughout the
layout, regardless of the shape and form of the patterns.
PO Sur-Reply 10 (citing PO Resp. 51–52; Ex. 1015,
1360). IYM additionally argues that RPX‘’s new
assertion that a “‘lookup table would store a different
value to assign to the LDR for different non[-] optimal
configuration’ is not present in the Petition and it is not
supported by any evidence.” Id.
Based on the record developed during trial, RPX
has shown sufficiently that one of ordinary skill in the
art would have combined the teachings of Allan and
Kroyan. We credit Dr. Nagle’s testimony that Allan and
Kroyan each are directed to locally adjusting global
constraints to improve yield because this is consistent
with their respective disclosures. Ex. 1002 ¶ 418. We also

App. 134
credit Dr. Nagle’s testimony that “[a] POSA would have
known to generate a knowledge database, as disclosed in
Kroyan, in order to facilitate the analysis of the layout
and GDRs, and ultimate application of the LDRs, as
disclosed in Allan,” because “developing a knowledge
database is no more than a simple design choice of using
a particular data structure that achieves the predictable
result of being able to ‘best capture known problematic
patterns and apply the appropriate treatment.’” Id. at ¶
421 (citing Ex. 1006, 8:6–8).
As stated by the Supreme Court, an obviousness
determination must be based on
some articulated reasoning with some rational
underpinning to support the legal conclusion of
obviousness. . . . [H]owever, the analysis need not
seek out precise teachings directed to the specific
subject matter of the challenged claim, for a court
can take account of the inferences and creative
steps that a person of ordinary skill in the art
would employ.

KSR., 550 U.S. at 418 (quoting In re Kahn, 441 F.3d 977,

988 (Fed. Cir. 2006)). Here, the skilled artisan would “be
able to fit the teachings of multiple patents together like
pieces of a puzzle” since the skilled artisan is “a person
of ordinary creativity, not an automaton.” KSR, 550 U.S.
at 420–21. Based upon the teachings of Allan and
Kroyan identified above, using Kroyan’s knowledge
database to store Allan’s different values assigned to the
LDR for different non-optimal configurations is likely to
be obvious when it does no more than yield predictable
results. See id. at 415–16. Moreover, as discussed supra,
RPX provided persuasive reasons why one of ordinary
skill in the art would combine Allan and Kroyan in the
manner suggested—namely, to ‘best capture known

App. 135
problematic patterns and apply the appropriate
treatment.’” Ex. 1006, 8:6–8 (emphasis added).
In view of the above, we determine Petitioner has
shown, by a preponderance of the evidence, that the
subject matter of claim 9 is unpatentable over Allan and
Kroyan.

D. Constitutional Challenge
IYM contends that the Supreme Court’s decision

in Oil States Energy Services, LLC v. Greene’s Energy
Group, LLC, 138 S. Ct. 1365 (2018) was limited to
addressing Oil States’s constitutional challenge that
subjecting its patent to an inter partes review
proceeding violates its right to a jury trial under the
Seventh Amendment of the U.S. Constitution. PO Resp.
52–53. IYM noted that that Supreme Court emphasized
that its Oil States decision “should not be misconstrued
as suggesting that patents are not property for purposes
of the Due Process Clause or the Takings Clause.” Id.
(quoting Oil States, 138 S. Ct. at 1379).
IYM contends that our exercise of jurisdiction to
adjudicate the patentability of the ’012 patent would
violate its rights under the Takings Clause of the Fifth
Amendment of the U.S. Constitution, because this
patent issued in November 2008, several years prior to
the enactment of the America Invents Act (“AIA”). PO
Resp. 53. According to IYM, the retroactive nature of
this inter partes review proceeding underscores the
unconstitutionality of the entire process. Id. IYM also
argues that subjecting the ’012 patent to an inter partes
review proceeding “places a severe, disproportionate,
and extremely retroactive burden on” IYM. Id. (quoting
E. Enters. v. Apfel, 524 U.S. 498, 538 (1998)).

App. 136
RPX counters in its Reply that IYM does not
offer any substantive analysis to support its argument
that subjecting the ’012 patent to an inter partes review
proceeding violates IYM’s rights under the Takings
Clause. Pet. Reply 26. RPX further contends that IYM
does not cite to any authority that would authorize the
Board to determine that the “retroactive” application of
the AIA is unconstitutional. Id.
We decline to consider IYM’s constitutional
challenge because “administrative agencies [generally]
do not have jurisdiction to decide the constitutionality of
congressional enactments.” See Riggin v. Office of
Senate Fair Employment Practices, 61 F.3d 1563, 1569
(Fed. Cir. 1995); see also Harjo v. Pro-Football, Inc., 50
USPQ2d 1705, 1710 (TTAB 1999) (“[T]he Board has no
authority . . . to declare provisions of the Trademark Act
unconstitutional.”), rev’d on other grounds, 284 F. Supp.
2d 96 (D.D.C. 2003). But see Am. Express Co. v.
Lunenfeld, Case CBM2014-00050, slip op. at 9–10
(PTAB May 22, 2015) (Paper 51) (“[F]or the reasons
articulated in Patlex [Corp. v. Mossinghoff, 758 F.2d 594
(Fed. Cir. 1985)], we conclude that covered business
method patent reviews, like reexamination proceedings,
comply with the Seventh Amendment.”).
III. CONCLUSION
We conclude that RPX demonstrates, by a
preponderance of the evidence, that (1) claims 1–5, 11,
13, and 14 are unpatentable under 35 U.S.C § 103(a) over
Allan and (2) claims 4 and 6–9 are unpatentable under 35
U.S.C § 103(a) over Allan and Kroyan. RPX, however,
has not demonstrated by a preponderance of the
evidence that claim 10 is unpatentable under 35 U.S.C §
103(a) over Allan.

App. 137
IV. ORDER
Accordingly, it is
ORDERED that claims 1–9, 11, 13, and 14 of the
’012 patent are held to be unpatentable;
FURTHER ORDERED that it has not been
demonstrated that claim 10 of the ’012 patent is
unpatentable; and
FURTHER ORDERED that, because this is a
Final Written Decision, parties to this proceeding
seeking judicial review of our decision must comply with
the notice and service requirements of 37 C.F.R. § 90.2.
For PETITIONER:
Richard Giunta
Marc Johannes
Randy Pritzker
WOLF GREENFIELD & SACKS, P.C.
rgiunta-ptab@wolfgreenfield.com
mjohannes-ptab@wolfgreenfield.com
rpritzker-ptab@wolfgreenfield.com
For PATENT OWNER:
Robert Whitman
Andrea Pacelli
Timothy Rousseau
Charles Wizenfeld
MISHCON DE REYA NEW YORK LLP
robert.whitman@mishcon.com
andrea.pacelli@mishcon.com
tim.rousseau@mishcon.com

App. 138
charles.wizenfeld@mishcon.com

App. 139
APPENDIX E
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
______________________
IYM TECHNOLOGIES LLC,

Appellant
v.
RPX CORPORATION, ADVANCED MICRO
DEVICES, INC.,

Appellees

______________________
2019-1761
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in No.
IPR2017-01886.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH,
TARANTO, CHEN, HUGHES, and STOLL, Circuit
Judges.
PER CURIAM.
ORDER

App. 140
Appellant IYM Technologies LLC filed a
combined petition for panel rehearing and rehearing en
banc. The petition was referred to the panel that heard
the appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in
regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
2020.

The mandate of the court will issue on May 15,

FOR THE COURT
May 8, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 141
APPENDIX F
NOTE: This order is nonprecedential.
United States Court of Appeals for the Federal Circuit
______________________
IYM TECHNOLOGIES LLC,

Appellant
v.
RPX CORPORATION, ADVANCED MICRO
DEVICES, INC.,

Appellees

______________________
2019-1762
______________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in No.
IPR2017- 01888.
______________________
ON PETITION FOR PANEL REHEARING
______________________
Before LOURIE, MOORE, and HUGHES, Circuit
Judges.
PER CURIAM.
ORDER
Appellant IYM Technologies LLC filed a petition
for panel rehearing.
Upon consideration thereof,
IT IS ORDERED THAT:

App. 142
The petition for panel rehearing is denied.
2020.

The mandate of the court will issue on May 15,

FOR THE COURT
May 8, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 143
APPENDIX G
United States Court of Appeals for the Federal Circuit
__________________________
IYM TECHNOLOGIES LLC,

Appellant
v.
RPX CORPORATION, ADVANCED MICRO
DEVICES, INC.,

Appellees

__________________________
2019-1762
__________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in No.
IPR2017-01888.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
DISMISSED AS MOOT
ENTERED BY ORDER OF THE COURT
March 13, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

